         REDACTED – PUBLIC VERSION




COOPERATION OF SCAAP RECIPIENTS
IN THE REMOVAL OF CRIMINAL ALIENS
      FROM THE UNITED STATES

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 07-07

               January 2007

         REDACTED – PUBLIC VERSION
COOPERATION OF SCAAP RECIPIENTS IN THE REMOVAL OF
    CRIMINAL ALIENS FROM THE UNITED STATES*

                             EXECUTIVE SUMMARY

      As required by Congress (Public Law 109-162), the United States
Department of Justice (DOJ) Office of the Inspector General (OIG) conducted
an audit of the Office of Justice Programs’ (OJP) State Criminal Alien
Assistance Program (SCAAP). The congressional mandate required the OIG
to provide answers to four questions involving jurisdictions that receive
SCAAP funding:

      Whether there are States, or political subdivisions of a State, that have
      received compensation under Section 241(i) of the Immigration and
      Nationality Act (8 U.S.C. 1231(i)) and are not fully cooperating in the
      Department of Homeland Security’s efforts to remove from the United
      States undocumented criminal aliens (as defined in paragraph (3) of
      such section).

      Whether there are States, or political subdivisions of a State, that have
      received compensation under section 241(1) of the Immigration and
      Nationality Act (8 U.S.C. 1231(i)) and that have in effect a policy that
      violates section 642 of the Illegal Immigration Reform and Immigrant
      Responsibility Act of 1996 (8 U.S.C. 1373).

      The number of criminal offenses that have been committed by aliens
      unlawfully present in the United States after having been apprehended
      by States or local law enforcement officials for a criminal offense and
      subsequently being released without being referred to the Department
      of Homeland Security for removal from the United States.

      The number of [criminal] aliens . . . who were released because the
      State or political subdivision lacked space or funds for detention of the
      alien. 1

     SCAAP is a payment program administered by OJP, through its
component the Bureau of Justice Assistance (BJA), in conjunction with the
Immigration and Customs Enforcement (ICE) bureau within the Department



        * The full version of this report included information that the Department of
Homeland Security considered to be Law Enforcement Sensitive information. To create this
public version of the report, the OIG redacted (deleted) the sensitive portions and noted
that the information was redacted.
      1
          See Appendix II of this report for Public Law No. 109-162, section 1196 (c),
(2006).
                                            -i–
of Homeland Security (DHS). 2 SCAAP was authorized by the Violent Crime
Control and Law Enforcement Act of 1994 to provide federal assistance to
states and localities for the costs of incarcerating certain criminal aliens who
are in custody based on state or local charges or convictions. 3 In fiscal year
(FY) 2005, BJA distributed $287.1 million in SCAAP payments to 752 state,
county, and local jurisdictions. 4

      The following table displays the 10 jurisdictions that received the
largest SCAAP payments from the FY 2005 appropriation. Collectively, they
accounted for nearly 69 percent of the SCAAP payments made from that
appropriation.


                            TOP TEN SCAAP RECIPIENTS – FY 2005


                    State                Jurisdiction               Amount
             California                             5              $ 85,953,191
                                State of California
             New York           State of New York                        24,022,356
             Texas              State of Texas                           18,582,484
             New York           City of New York                         15,893,255
             Florida            State of Florida                         12,806,110
             California                               6                  12,530,034
                                Los Angeles County
             Arizona            State of Arizona                      12,139,791
             California         Orange County                          6,562,437
             Illinois           State of Illinois                      4,731,269
             Massachusetts      State of Massachusetts                 4,728,549
                                                        TOTAL       $197,949,476
            Source: Bureau of Justice Assistance (BJA)

      Although 752 jurisdictions received SCAAP payments from the FY 2005
appropriation, the vast majority of them received relatively small amounts.
The following chart summarizes the number of recipients by dollar amount.


       2
         Prior to creation of the DHS in 2003, the functions currently performed by ICE
were performed by the Immigration and Naturalization Service, which at the time was part
of DOJ.
       3
           Public Law No. 103-322 (1994).
       4
        FY 2005 is the most recent year for which payment information was available. See
Appendix III for payment information for FYs 2005 and 2004.
       5
          When we define a jurisdiction as the “state,” we are referring to the state
department of corrections. We are not including all the counties and municipalities within
the state that may have separately received SCAAP payments.
       6
           This refers to the Los Angeles County Sheriff’s Department.

                                             -i–
Source: OIG analysis of BJA data

       The program reimburses states and localities that incur correctional
officer salary costs for incarcerating undocumented criminal aliens who:
(1) have at least one felony or two misdemeanor convictions for violations of
state or local law, and (2) are incarcerated for at least four consecutive days
during the established reporting period. 7 Applicants for funding are required
to provide correctional officer salary costs, the total of all inmate days, and
details about eligible inmates housed in their correctional facilities during
that period.

      For the applications received, ICE assists BJA by checking the inmate
data submitted by the jurisdictions that seek SCAAP payments to determine
the immigration status of those inmates. This process is described as
“vetting” the data. 8



       7
         The reporting period does not coincide with the fiscal year for which SCAAP funds
are appropriated. For example, the reporting period for FY 2006 funds was July 1, 2004,
through June 30, 2005. Similarly, the reporting period for FY 2005 funds was July 1, 2003,
through June 30, 2004.
       8
         According to a July 2003 Memorandum of Understanding between ICE and OJP,
ICE agreed to determine, by SCAAP applicant, the number of eligible inmates.

                                          - ii –
      Historically, congressional appropriations for SCAAP have been less
than the total amount sought by all the jurisdictions applying for SCAAP
payments. As a result, BJA pays a pro rata amount of the jurisdictions’
submitted expenses. In April 2005, the Government Accountability Office
(GAO) issued a report stating that 80 percent of the SCAAP aliens were
incarcerated in the five states of Arizona, California, Florida, New York, and
Texas in FY 2003. GAO found that SCAAP payments to four of those states
were less than 25 percent of the estimated cost to incarcerate SCAAP
criminal aliens. The FY 2003 SCAAP payments amounted to 12 percent of
the estimated incarceration costs for California, 24 percent for New York,
17 percent for Florida, and 14 percent for Arizona.9

SCAAP RECIPIENTS’ COOPERATION WITH ICE

       The first congressional question asked us to determine whether there
are recipients of SCAAP funds that do not fully cooperate with the efforts of
DHS to remove undocumented criminal aliens from the United States.
Congress did not define “fully cooperate,” nor did our review of immigration
legislation disclose any specific steps that localities are required to take to
help effect the removal of criminal aliens from the United States.

       To respond to this question, we interviewed ICE officials to obtain their
views, distributed a questionnaire to 164 SCAAP recipients, and conducted
independent testing in 7 jurisdictions that received SCAAP funding. 10 Our
field testing included interviews with local officials and review of local files. 11




       9
          Government Accountability Office. Information on Criminal Aliens in Federal and
State Prisons and Local Jails, GAO-05-337R, April 7, 2005. GAO reported that data on the
cost of incarceration for the State of Texas were not available.
       10
           See Appendix IV for a list of the jurisdictions we surveyed and those that
responded. The 164 agencies in the sample received $264.8 million, or 92.2 percent of the
FY 2005 SCAAP payments. The 99 respondents to our questionnaire received $205.4
million, or 71.6 percent of the FY 2005 SCAAP payments.
       11
           We performed field work at the State of California Department of Corrections and
Rehabilitation; State of Oregon Department of Corrections; State of Texas Department of
Criminal Justice; Clark County, Nevada; Cook County, Illinois; City of New York, New York;
and the City and County of San Francisco, California. We selected these sites to have a mix
of state, county, and local jurisdictions that received SCAAP payments of at least $1 million
each. Collectively, these seven jurisdictions received $128.3 million, or 44.7 percent of the
SCAAP payments issued from the FY 2005 appropriation.



                                           - iii –
Views of ICE Officials

      We asked ICE officials to identify SCAAP recipients that they believe do
not fully cooperate with ICE in the removal of undocumented criminal aliens
from the United States. Because ICE does not maintain records describing
SCAAP recipients that do not cooperate in the effort to remove criminal
aliens, they noted that any information they might provide us would be
anecdotal.

       We also contacted officials at ICE headquarters and solicited their
views first about the cooperativeness of SCAAP recipients generally and later
about the seven jurisdictions where we performed field work. ICE officials
commented favorably with respect to the entities’ cooperation about every
jurisdiction except the City and County of San Francisco, and they declined
to suggest alternative sites for our field work.

       According to an agent working at ICE headquarters, the ICE San
Francisco Field Office has encountered difficulties, which they attributed to a
“bare minimum” of cooperation. Specifically, we were told that ICE agents
are not permitted to access San Francisco County jail records without the
authorization and approval of the Sheriff. ICE agents are authorized to enter
the jails to interview prisoners and to access the “all-jail alphabetical list” of
inmates but they do not have authorization to access booking cards, housing
cards or other jail records. ICE officials commented on this situation as
being different from other localities that have allowed ICE agents such
access. Despite these views expressed by ICE officials, San Francisco
officials believe they are cooperating sufficiently with ICE.

      In the absence of a congressional definition of “fully cooperating” to
guide us, we developed specific tests to measure the degree to which SCAAP
recipients assisted ICE in the effort to remove criminal aliens from the
United States. We looked at whether SCAAP recipients: (1) inquire into the
immigration status of individuals in custody; (2) notify ICE when criminal
aliens are in custody; (3) accept detainers from ICE; and (4) notify ICE
when criminal aliens are about to be released from custody. 12

      Our review did not disclose any instances of outright failure to
cooperate with ICE in the removal of criminal aliens from the United States.
Instead, we found that local jurisdictions often set the enforcement of state
and local law as a priority, while sometimes permitting or encouraging law


       12
          A detainer is a notice from ICE asking officials at the detention facility to notify
ICE before releasing a detainee.


                                             - iv –
enforcement agencies and officers to work with ICE to some degree on
immigration matters.

      In addition to answering our questions on the level of cooperation
received by state and local agencies, ICE officials also made suggestions on
how to improve the SCAAP program. Some ICE headquarters officials
expressed a desire to have responsibility for SCAAP transferred from BJA to
ICE and to make SCAAP payments contingent upon participation in the
“287(g)” program. Section 287(g) of the Immigration and Nationality Act
provides that ICE may enter into a written agreement with a state or locality
enabling qualified state or local law enforcement agents to carry out certain
functions relating to immigration enforcement, including investigation,
apprehension, or detention of aliens in the United States. 13

       Other ICE officials expressed the view that SCAAP is “misguided”
primarily because SCAAP applications are based on a custody period in the
year prior to the one in which payments are sought. In the view of those
officials, payment for the past costs of incarceration does nothing to further
the removal of undocumented criminal aliens currently in the United States.

       Some ICE headquarters officials also stated they would like to have
graduated payments based on the SCAAP recipient taking steps toward the
removal of criminal aliens from the United States. Larger payments could be
provided to a jurisdiction when a final order of removal is obtained and for
participating in the “Section 287(g)” program. This would result in payment
for assisting ICE in identifying and removing criminal aliens rather than
merely housing them.

Results of Survey

      We also surveyed 164 of the 752 state, county, and local agencies that
received SCAAP funding from the FY 2005 appropriation and received
responses from 99 jurisdictions. Our questionnaire included the following
four questions designed to assess their cooperation with ICE: 14




      13
           8 U.S.C. § 1357(g) (1996).
      14
          Our questionnaire included boxes where the respondent could check “yes” or
“no.” However, some respondents wrote in “not applicable,” or “unknown,” and, in some
cases, the respondent chose not to answer a particular question. Our questionnaire also
included spaces where the respondent could add explanatory comments.


                                          -v–
       •    If law enforcement officers from your jurisdiction arrest an
            individual on state or local charges, do they generally ask the
            subject about his or her immigration status?

       •    If law enforcement officers from your jurisdiction have reason to
            believe that someone they arrest may be an undocumented alien,
            do they generally inform ICE that the individual is in their custody?

       •    Do the detention facilities in your jurisdiction generally accept
            detainers from ICE for undocumented criminal aliens in their
            custody?

       •    Do the detention facilities in your jurisdiction generally alert ICE
            prior to releasing any undocumented criminal aliens in their
            custody?

      None of the respondents answered negatively to all four questions.
Fourteen respondents answered “no” to 2 questions and 5 respondents
answered “no” to 3 questions. 15

       •    Thirty jurisdictions reported they do not generally ask arrestees
            about their immigration status. However, some jurisdictions
            explained that arrestees are asked about their country of birth
            rather than immigration status, and others stated that immigration
            status is determined during the booking process rather than at the
            time of arrest. 16

       •    Seventeen respondents reported they do not inform ICE when they
            have someone in custody who they believe may be an
            undocumented alien. However, many of those 17 jurisdictions
            added qualifying remarks. For example, some agencies stated that
            ICE agents come to the state or local institution to review files,
            which would obviate the need to inform ICE. Other jurisdictions
            criticized ICE and stated they do not inform ICE about possible
            undocumented aliens in their custody because they believe ICE will
            not respond.



       15
          See Appendix X for additional details about the responses that contained more
than one negative answer.
       16
           Thirty-four jurisdictions checked the “no” box on the questionnaire, but 4 of those
34 jurisdictions added comments stating that they are custodial institutions and their
officers do not have arrest authority.

                                            - vi –
       •    Eighteen jurisdictions reported they do not alert ICE prior to
            releasing undocumented criminal aliens from custody. However,
            several of those jurisdictions added clarifying remarks. For
            example, one respondent stated they are generally not aware of the
            immigration status of individuals in custody. Another reported that
            releases of inmates must occur within a very short time after a local
            court orders the release. Another jurisdiction stated its officials do
            not alert ICE prior to releasing an undocumented criminal alien
            from custody “unless ICE asks us to.”

Results of Field Work

       In addition, we interviewed officials and reviewed files at seven
jurisdictions that received funding from the FY 2005 appropriation for
SCAAP. The officials whom we interviewed included local officials
knowledgeable in the areas of SCAAP and detention, as well as ICE officials
who had dealings with the state, county, or locality. Local officials from all
seven jurisdictions reported that their detention facilities: (1) accept ICE
detainers for undocumented criminal aliens in their custody; and (2) alert
ICE before releasing undocumented criminal aliens from custody.

       To test these assertions, we reviewed a total of 76 files relating to
criminal aliens who had been recently discharged from local custody at the 7
locations where we performed field work. We found that:

       •    ICE was notified in a timely manner that the 76 criminal aliens were
            in custody;

       •    ICE detainers were accepted for all 76 individuals;

       •    70 criminal aliens were transferred to ICE, all in a timely manner. 17

      We further examined the issue of cooperation between SCAAP
recipients and ICE by researching the policies of localities that may have
laws, resolutions, or other policies limiting the role of local agencies in the
enforcement of immigration legislation. In some cases, localities have
designated themselves with terms such as “sanctuary city” or “civil liberties
safe zone.” ICE officials expressed dissatisfaction with the level of
cooperation provided by some of these “sanctuary” sites.


       17
           Five of the remaining six individuals were transferred to other jurisdictions, such
as a state prison, and one, a Cuban, was paroled because repatriation to Cuba was not
possible.


                                            - vii –
       We were able to locate an official “sanctuary” policy for only two
jurisdictions that received at least $1 million in SCAAP funding, the State of
Oregon, which received $3.4 million, and the City and County of San
Francisco, which received $1.1 million and has designated itself as a “City
and County of Refuge.” We also located an Executive Order issued by the
Mayor of the City of New York limiting the activities of local law enforcement
agencies and officers in the enforcement of immigration law. 18 However, in
each instance the local policy either did not preclude cooperation with ICE or
else included a statement to the effect that those agencies and officers will
assist ICE or share information with ICE as required by federal law.

      The results of our review were inconclusive in identifying SCAAP
recipients that were not fully cooperating with ICE in its efforts to remove
undocumented criminal aliens from the United States. We found conflicting
views between ICE and local jurisdictions as to what actions constitute full
cooperation. In addition, our fieldwork at select locations found that the
SCAAP recipients notified ICE in a timely manner of aliens in custody,
accepted detainers from ICE, and promptly notified ICE of an impending
release from local custody.

COMMUNICATION BETWEEN SCAAP RECIPIENTS AND ICE

       The second congressional question asked us to determine whether any
SCAAP recipients have in effect a policy that violates section 642 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1373). Two key provisions of this statute provide:

      •    Notwithstanding any other provision of Federal, State, or local law,
           a Federal, State, or local government entity or official may not
           prohibit, or in any way restrict, any government entity or official
           from sending to, or receiving from, the Immigration and
           Naturalization Service information regarding the citizenship or
           immigration status, lawful or unlawful, or any individual.

      •    Notwithstanding any other provision of Federal, State, or local law,
           no person or agency may prohibit, or in any way restrict, a Federal,
           State, or local government entity from doing any of the following
           with respect to information regarding the immigration status, lawful
           or unlawful, of any individual:

           o Sending such information to, or requesting or receiving such
             information from, the Immigration and Naturalization Service.

      18
           See Appendix VII.

                                     - viii –
               o Maintaining such information.

               o Exchanging such information with any other Federal, State, or
                 local government entity. 19

Views of ICE Officials

       ICE officials objected to provisions of the administrative code of the
City and County of San Francisco that limit the ability of local agencies and
officers to communicate immigration information to ICE.

Results of Survey

       We included a question in our survey asking about laws, regulations,
or policies affecting each organization that might restrict the free exchange
of immigration-related information between local law enforcement agencies
and ICE. The 99 jurisdictions that responded to the questionnaire stated
almost unanimously that there was no legislation or policy impeding the
ability of local officers and agencies to communicate with ICE on
immigration-enforcement matters.

       Only the City and County of San Francisco gave a qualified “yes” in
response to our queries about the existence of a local ordinance or a
departmental policy limiting the ability of local law enforcement officers or
agencies to exchange information with ICE relating to immigration
enforcement. The response included a copy of Chapter 12H of the City
Administrative Code, which contains a provision stating “no department,
agency, commission, officer or employee . . . shall use any City funds or
resources to assist in the enforcement of federal immigration law or to
gather or disseminate information regarding the immigration status of
individuals in the City and County of San Francisco unless such assistance is
required by federal or state statute, regulation, or court decision.”
[Emphasis added.] The Code also states “nothing in this Chapter shall
prohibit, or be construed as prohibiting, a law enforcement officer from
identifying or reporting any person pursuant to a state or federal law or
regulation who is in custody after being booked for the alleged commission
of a felony and is suspected of violating the civil provisions of the
immigration laws.” Finally, the Code states that “nothing in this chapter
shall preclude any . . . department, agency, commission, officer or employee
from (a) reporting information to the INS regarding an individual who has

          19
               The statutory references to the Immigration and Naturalization Service now apply
to ICE.

                                               - ix –
been booked at any county jail facility, and who has previously been
convicted of a felony committed in violation of the laws of the State of
California, which is still considered a felony under state law; (b) cooperating
with an INS request for information regarding an individual who has been
convicted of a felony committed in violation of the laws of the State of
California, which is still considered a felony under state law; or (c) reporting
information as required by federal or state statute, regulation or court
decision, regarding an individual who has been convicted of a felony
committed in violation of the laws of the State of California, which is still
considered a felony under state law.” 20

       San Francisco city officials also cited provisions of a police department
General Order, which states that generally “a member [of the police
department] shall not inquire into an individual’s immigration status or
release or threaten to release information to the INS regarding an
individual’s identity or immigration status.” However, the General Order
makes exceptions that parallel those enumerated in the City Administrative
Code.

Results of Field Work

       In our interviews with local officials at the seven sites, we asked if
their jurisdictions currently have in effect any statute, ordinance, executive
order, or other legislation or official policy prohibiting local law enforcement
agencies and officers from freely exchanging information with ICE on the
citizenship or immigration status of individuals. Officials at four of the seven
sites we visited replied unequivocally, “no,” while officials at the other three
sites gave qualified answers.

      •    The State of Oregon has a state “sanctuary” statute, but the
           officials whom we interviewed believe it does not infringe on the
           exchange of information with ICE. 21

      •    Officials from the City of New York informed us there is no
           prohibition on exchanging information with ICE on individuals who
           have been arrested. Executive Order No. 41, issued by the Mayor,
           defines “immigration status” as “confidential information” and
           forbids disclosure except when “such disclosure is required by law.”
           The Executive Order also provides exceptions to the prohibition
           against disclosure when “the individual to whom [immigration]

      20
           The San Francisco City Administrative Code references to INS now apply to ICE.
      21
           The State of Oregon “sanctuary” statute is located in Appendix VI.


                                            -x–
            information pertains is suspected . . . of engaging in illegal activity,
            other than mere status as an undocumented alien” or “the
            dissemination of such information is necessary to apprehend a
            person suspected of illegal activity, other than mere status as an
            undocumented alien” or “such disclosure is necessary in furtherance
            of an investigation of potential terrorist activity.” 22

       •    Local officials stated the City of San Francisco Police Department’s
            policy is “consistent with its obligations under state and federal law,
            to adhere to the City of Refuge Ordinance. This ordinance prohibits
            the use of city resources to assist in the enforcement of federal
            immigration laws except in certain limited circumstances consistent
            with state and federal law.”

          As previously mentioned, ICE officials objected to San Francisco’s
policies but they did not raise any concerns about the flow of information to
and from any of the other six sites where we performed field work.

RECIDIVISM OF CRIMINAL ALIENS RELEASED FROM LOCAL CUSTODY

      The third congressional question asked us to determine how many
criminal offenses were committed by criminal aliens who were released from
state or local custody without a referral to DHS for removal from the United
States.

      To address this question, we performed limited testing to determine
the number of subsequent arrests of criminal aliens who were released from
state or local custody. We based our testing on information from the vetted
FY 2004 SCAAP database, which was the last year when ICE reported to BJA
on the status of every person identified in support of applications for SCAAP
funding. 23 There were 262,105 records in that database. We requested
assistance from the Federal Bureau of Investigation (FBI) to have those
records compared to arrest data in the FBI’s National Crime Information
Center (NCIC). 24



       22
            A copy of the Executive Order may be found in Appendix VII.
       23
          FY 2004 SCAAP funding was based on the incarceration of criminal aliens between
July 1, 2002, and June 30, 2003.
       24
          NCIC is a computerized database of criminal justice information available to law
enforcement agencies nationwide. The NCIC database consists of millions of records
arranged in 18 files, including one relating to immigration violators.


                                           - xi –
      After querying NCIC, the FBI provided us with nearly 433,000 text files
that could not be searched by automated means. The volume of files was
too great to search manually and quantify the results. Consequently, we
judgmentally selected a sample of 100 criminal histories, which we reviewed
for evidence of arrests of criminal aliens subsequent to June 30, 2003. The
criminal histories for 73 of the 100 individuals documented at least one
arrest after that date. Those 73 individuals accounted for a total of 429
arrests, with 878 charges and 241 convictions. These figures represent an
average of nearly six arrests per individual.

      The charges for the 73 individuals ranged from traffic violations and
trespassing to more serious crimes, such as burglary or assault. Some of
those charges included:

       •    166 drug-related;

       •    37 immigration-related;

       •    213 burglary, robbery, or theft;

       •    40 assault;

       •    10 property damage;

       •    3 terrorist threat; 25 and

       •    13 weapons charges.

      Based on this limited sample, we cannot statistically extrapolate the
number of offenses committed by undocumented criminal aliens who were
released from local custody without a referral to ICE. Based on the
information available to us in the criminal histories, we could not determine
the number of the criminal aliens in our sample that were deported, if any,
and later arrested after reentering the United States. We also could not
determine if ICE was notified before the criminal aliens in our sample were
released from custody. But if this data is indicative of the full population of
262,105 criminal histories, the rate at which released criminal aliens are
rearrested is extremely high.




       25
            The “terrorist threat” cases related to misdemeanor charges based on domestic
disputes.


                                           - xii –
CRIMINAL ALIENS RELEASED DUE TO LACK OF RESOURCES

      The fourth congressional question asked us to determine how many of
the criminal aliens who were released from state or local custody were
released for lack of sufficient detention space or funding to hold them. While
we believe it likely that this occurs regularly, our review could not identify
specific instances of such releases because ICE does not track the number of
aliens released from local custody due to lack of the necessary resources to
detain them.

     In an effort to address this issue, the questionnaire that we sent to
164 SCAAP recipients included a request that the respondents provide the
number of criminal aliens who were released from custody between
October 1, 2004, and June 30, 2006, because the respondent lacked the
space or funds to detain those aliens. None of the respondents reported
having released criminal aliens from custody due to lack of resources.

       Even though the respondents to our questionnaire did not report
releasing undocumented criminal aliens because of insufficient local
resources, we noted an issue regarding the lack of space available to ICE to
detain aliens in custody. In an April 2006 report, the Inspector General of
the Department of Homeland Security reported, “[the Detention and
Removal Operations (DRO)] estimates that in FY 2007 there will be 605,000
foreign-born individuals admitted to state correctional facilities and local jails
during the year for committing crimes in the U.S. 26 Of this number, DRO
estimates half (302,500) will be removable aliens. Most of these
incarcerated aliens are being released into the U.S. at the conclusion of their
respective sentences because DRO does not have the resources to identify,
detain, and remove these aliens under its Criminal Alien Program (CAP). It
is estimated that DRO would need an additional 34,653 detention beds, at
an estimated cost of $1.1 billion, to detain and remove [them].” 27

       The DHS Inspector General went on to state, “additionally, DRO’s
ability to detain and remove illegal aliens with final orders of removal is
impacted by: (1) the propensity of illegal aliens to disobey orders to appear
in immigration court; (2) the penchant of released illegal aliens with final
orders to abscond; (3) the practice of some countries to block or inhibit the
repatriation of its citizens; and (4) two recent U.S. Supreme Court decisions

      26
         At our exit conference, representatives of DRO stated that references to “DRO” in
the DHS OIG report would in this context be more appropriately read as “ICE.”
      27
          Department of Homeland Security, Office of the Inspector General. Detention and
Removal of Illegal Aliens: U.S. Immigration and Customs Enforcement (ICE), OIG-06-033,
April 2006, p. 2.

                                         - xiii –
which mandate the release of criminal and other high-risk aliens 180 days
after the issuance of the final removal order except in ‘Special
Circumstances.’ Collectively, the bed space, personnel and funding
shortages coupled with the other factors, has created an unofficial ‘mini-
amnesty’ program for criminal and other high-risk aliens.”

      The DHS Inspector General reported that 345,006 criminal aliens were
apprehended between FYs 2001 and 2004, of which 27,947 (8 percent) were
released. However, the DHS Inspector General could not determine whether
they were released because of a lack of detention space or for other
reasons, because ICE does not track that information.




                                   - xiv –
                                   TABLE OF CONTENTS

                                                                              Page
CHAPTER 1 – INTRODUCTION .......................................................... 1

   Background.................................................................................... 1
   Legal Authority for SCAAP ................................................................ 3
   Application Process.......................................................................... 3
   Prior Audits .................................................................................... 6
   OIG Audit Approach......................................................................... 7

CHAPTER 2 – SCAAP RECIPIENTS’ COOPERATION WITH ICE ............ 8

   Views of ICE Officials ....................................................................... 8
   Results of OIG Survey ................................................................... 10
   Results of Field Work ..................................................................... 18
   Statement of Major Cities Chiefs of Police ......................................... 22
   Additional Research ....................................................................... 23

CHAPTER 3 – COMMUNICATION BETWEEN SCAAP RECIPIENTS AND
  ICE ............................................................................................ 25

   Views of ICE Officials ..................................................................... 25
   Results of OIG Survey ................................................................... 26
   Results of Field Work ..................................................................... 27

CHAPTER 4 – RECIDIVISM OF CRIMINAL ALIENS RELEASED FROM
  LOCAL CUSTODY ........................................................................ 29

   NCIC Query.................................................................................. 29

CHAPTER 5 – CRIMINAL ALIENS RELEASED DUE TO LACK OF
  RESOURCES ............................................................................... 31

   Results of OIG Survey ................................................................... 31
   DHS Inspector General Report ........................................................ 32
STATEMENT ON COMPLIANCE WITH
  LAWS AND REGULATIONS.......................................................... 33

STATEMENT ON INTERNAL CONTROL STRUCTURE .......................... 34

APPENDICES:

   I.     AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY .............. 35

   II.    PUBLIC LAW 109-162 ........................................................ 37

   III.   SCAAP RECIPIENTS – FYs 2004 AND 2005 ......................... 39

   IV.    OIG SURVEY RECIPIENTS................................................... 62

   V.     MAJOR CITIES CHIEFS OF POLICE POLICY ......................... 66

   VI.    STATE OF OREGON POLICY ................................................ 68

   VII. CITY OF NEW YORK POLICY ............................................... 69

   VIII. SAN FRANCISCO CITY ADMINISTRATIVE CODE .................. 72

   IX.    CALIFORNIA ATTORNEY GENERAL’S OPINION #01-213 ..... 75

   X.     JURISDICTIONS WITH MULTIPLE “NO” ANSWERS TO THE
          OIG SURVEY ...................................................................... 85

   XI.    BUREAU OF JUSTICE ASSISTANCE RESPONSE TO THE
          DRAFT AUDIT REPORT ....................................................... 91
                           CHAPTER 1 – INTRODUCTION

      As required by Congress (Public Law 109-162), the United States
Department of Justice (DOJ) Office of the Inspector General (OIG) conducted
an audit of the Office of Justice Programs’ (OJP) State Criminal Alien
Assistance Program (SCAAP). The congressional mandate required the OIG
to perform a study and report to the Judiciary Committees of the United
States Senate and the United States House of Representatives on the
following matters pertaining to recipients of SCAAP payments:

      Whether there are States, or political subdivisions of a State, that have
      received compensation under Section 241(i) of the Immigration and
      Nationality Act (8 U.S.C. 1231(i)) and are not fully cooperating in the
      Department of Homeland Security’s efforts to remove from the United
      States undocumented criminal aliens (as defined in paragraph (3) of
      such section).

      Whether there are States, or political subdivisions of a State, that have
      received compensation under section 241(1) of the Immigration and
      Nationality Act (8 U.S.C. 1231(i)) and that have in effect a policy that
      violates section 642 of the Illegal Immigration Reform and Immigrant
      Responsibility Act of 1996 (8 U.S.C. 1373).

      The number of criminal offenses that have been committed by aliens
      unlawfully present in the United States after having been apprehended
      by States or local law enforcement officials for a criminal offense and
      subsequently being released without being referred to the Department
      of Homeland Security for removal from the United States.

      The number of [criminal] aliens . . . who were released because the
      State or political subdivision lacked space or funds for detention of the
      alien. 28

Background

      SCAAP is a payment program administered by OJP through the Bureau
of Justice Assistance (BJA) and in conjunction with the Immigration and
Customs Enforcement (ICE) bureau within DHS. 29 SCAAP was authorized by

      28
           See Appendix II of this report for Public Law No. 109-162, section 1196 (c)
(2006).
      29
          Prior to creation of the DHS in 2003, the functions currently performed by ICE
were performed by the Immigration and Naturalization Service, which at the time was part
of DOJ.

                                            -1–
the Violent Crime Control and Law Enforcement Act of 1994 to provide
federal assistance to states and localities for the costs of incarcerating
certain criminal aliens who are in custody based on state or local charges or
convictions. 30 Since SCAAP is a payment program rather than a grant
program, jurisdictions that are eligible to receive funds simply provide OJP
with their accounting information and accept payment through OJP’s Grants
Management System. They do not have to submit program progress reports
or financial status reports.

       The program pays states and localities that incur correctional officer
salary costs for incarcerating undocumented criminal aliens who: (1) have
at least one felony or two misdemeanor convictions for violations of state or
local law, and (2) are incarcerated for at least four consecutive days during
the established reporting period. 31 Applicants for funding are required to
provide correctional officer salary costs, the total of all inmate days, and
details about eligible inmates housed in their correctional facilities during
that period.

      For the applications received, ICE assists BJA by checking the inmate
data submitted by the jurisdictions that seek SCAAP payments to determine
the immigration status of those inmates. This process is described as
“vetting” the data. In FY 2005, BJA distributed $287.1 million in SCAAP
payments to 752 state, county, and local jurisdictions. 32 Individual
payments ranged from a high of $85.9 million (State of California) to a low
of $40 (Polk County, Minnesota). In FY 2004, BJA distributed $281.6 million
to 741 jurisdictions in amounts ranging from $77.4 million (State of
California) to $35 (Louisville Jefferson County Metro Government,
Kentucky). 33

      Historically, congressional appropriations for SCAAP have been less
than the total amount sought by all the jurisdictions applying for SCAAP
payments. As a result, BJA pays a pro rata amount of a jurisdiction’s
submitted expenses. In April 2005, the Government Accountability Office
(GAO) reported that 80 percent of the SCAAP aliens were incarcerated in the

       30
            Pub. L. No. 103-322 (1994).
       31
          The reporting period does not coincide with the FY for which SCAAP funds are
appropriated. For example, the reporting period for FY 2006 funds was July 1, 2004,
through June 30, 2005. Similarly, the reporting period for FY 2005 funds was July 1, 2003,
through June 30, 2004.
       32
            FY 2005 was the most recent year for which payment information was available.
       33
         See Appendix III for details of the SCAAP payments made from the FY 2005 and
FY 2004 appropriations.

                                           -2–
5 states of Arizona, California, Florida, New York, and Texas in FY 2003, but
payments to 4 of those states were less than 25 percent of the estimated
cost to incarcerate SCAAP criminal aliens. The FY 2003 SCAAP payments
amounted to 12 percent of the estimated incarceration costs for California,
24 percent for New York, 17 percent for Florida, and 14 percent for
Arizona. 34

     Prior to FY 2006, there were no restrictions on how SCAAP funds could
be used. In the FY 2006 re-authorization Congress required that SCAAP
payments be used by the recipients for correctional purposes.

Legal Authority for SCAAP

       The legislation governing SCAAP includes the Immigration and
Nationality Act and the Violent Crime Control and Law Enforcement Act of
1994. 35 According to BJA’s SCAAP program guidelines, these statutes
provide that “in general terms, if a chief executive officer of a state or a
political division exercises authority over the incarceration of undocumented
criminal aliens and submits a written request to the U.S. Attorney General,
the Attorney General may provide compensation to that jurisdiction for those
incarceration costs. SCAAP is subject to additional terms and conditions of
yearly congressional appropriations.” BJA states that eligibility for SCAAP
payments extends to all 50 state governments, the District of Columbia,
Guam, Puerto Rico, the U.S. Virgin Islands, and more than 3,000 counties
and cities with correctional facilities. 36

Application Process

      BJA’s annual guidelines alert potential SCAAP applicants of the
deadline for applying for SCAAP funding and describe the application
process. Applications for SCAAP payments are accepted electronically and
“must provide all required information on undocumented criminal aliens for
the prescribed reporting period, the total reporting period salary information
for their full and part-time permanent and contracted correctional officers,


       34
           Government Accountability Office. Information on Criminal Aliens in Federal and
State Prisons and Local Jails, GAO-05-337R, April 7, 2005. GAO reported that data on the
cost of incarceration for the State of Texas were not available.
       35
            8 U.S.C. § 1231(i), as amended, (1996).
       36
          Bureau of Justice Assistance. State Criminal Alien Assistance Program: FY 2006
Guidelines, pp. 1 and 2. The incarceration costs for which BJA pays states and localities are
the salary costs of correctional officers.


                                           -3–
and the total of all inmate days.” 37 The “required information on
undocumented criminal aliens” includes the alien registration number, name,
date of birth, unique inmate identification number assigned by the local
jurisdiction, country of birth, date taken into custody, date released from
custody, and Federal Bureau of Investigation (FBI) number. 38

       BJA forwards the submitted information about aliens to ICE for a
determination of whether each purportedly undocumented criminal alien is
indeed illegally present in the United States 39 Confirmation of each
individual’s immigration status is crucial in determining whether payment for
detention-related expenses would be allowable under SCAAP.

       In the past, ICE reported back to BJA on the eligibility for SCAAP
payments using three categories: eligible, not eligible, and unknown. If ICE
determined an individual was a qualifying undocumented criminal alien, ICE
categorized that individual as eligible. If ICE determined an individual was
not an undocumented criminal alien, ICE would categorize the individual as
ineligible. The immigration status of the remaining individuals would be
categorized as unknown. After receiving the results of the ICE vetting
process, BJA determined the amounts to be paid each jurisdiction using a
formula based: on (1) the number of jail days for eligible inmates, (2) an
allowance for a percentage of the jail days of inmates whose eligibility was
unknown, and (3) the amount of appropriated funds available for
distribution.

      However, FY 2004 was the last year for which ICE reported to BJA on
the status of every person identified in support of applications for SCAAP
funding. 40 In that year, the applicants for SCAAP payments provided data
on a total of 270,807 inmates. After vetting those records, ICE determined
that 96,085 were eligible and 49,210 were ineligible as a basis for SCAAP
payment. ICE categorized the immigration status of the remaining 125,512
inmates as unknown.

      The following table displays the 10 jurisdictions that received the
largest SCAAP payments from the FY 2005 appropriation. Collectively, they
      37
           State Criminal Alien Assistance Program: FY 2006 Guidelines, p. 2.
      38
           The FBI number is issued by the FBI to track arrests and fingerprint records.
      39
         According to a July 2003 Memorandum of Understanding between ICE and OJP,
ICE agreed to determine, by SCAAP applicant, the number of eligible inmates.
      40
           In the FY 2005 SCAAP funding process, ICE merely reported the number of
qualifying jail days for each applicant locality.


                                            -4–
accounted for nearly 69 percent of the SCAAP payments made from that
appropriation.


                            TOP TEN SCAAP RECIPIENTS – FY 2005


                    State                Jurisdiction                  Amount
             California                             41             $    85,953,191
                                State of California
             New York           State of New York                       24,022,356
             Texas              State of Texas                          18,582,484
             New York           City of New York                        15,893,255
             Florida            State of Florida                        12,806,110
             California                               42                12,530,034
                                Los Angeles County
             Arizona            State of Arizona                      12,139,791
             California         Orange County                          6,562,437
             Illinois           State of Illinois                      4,731,269
             Massachusetts      State of Massachusetts                 4,728,549
                                                         TOTAL      $197,949,476
            Source: Bureau of Justice Assistance (BJA)

      Although 752 jurisdictions received SCAAP payments from the FY 2005
appropriation, the vast majority of them received relatively small amounts.
The following chart summarizes the number of recipients by dollar amount.




       41
           When we define a jurisdiction as the “state” we are referring to the state
department of corrections. We are not including all the counties and municipalities within
the state that may have received SCAAP payments.
       42
            This refers to the Los Angeles County Sheriff’s department.

                                             -5–
Source: OIG analysis of BJA Data

Prior Audits

       Department of Justice, Office of the Inspector General, Office of
Justice Programs State Criminal Alien Assistance Program, 00-13,
May 2000. Our audit reviewed FY 1996 SCAAP payments to the states of
California, Texas, New York, Florida, and Illinois to determine whether the
payments were appropriate based on incarceration costs and the number of
undocumented criminal aliens. The five jurisdictions collectively received
76 percent of the FY 1996 SCAAP funding. The audit concluded that they
were over-compensated by $19.3 million for unallowable inmate costs and
ineligible inmates included in the SCAAP applications. The audit also found
that OJP's compensation methodology was over-inclusive in the degree to
which it paid SCAAP applicants for inmates whose immigration status was
“unknown.”

      Department of Justice, Office of the Inspector General,
Immigration and Naturalization Service Institutional Removal
Program, 02-41, September 2002. The Institutional Removal Program
(IRP) is a national program that aims to: (1) identify removable criminal
aliens in federal, state, and local correctional facilities, (2) ensure that they
are not released into the community, and (3) remove them from the United
States upon completion of their sentences. In our audit report on this

                                      -6–
program, we noted “the whole IRP process is predicated on the cooperation
of the institutions in which criminal aliens are incarcerated. Without that
cooperation, the IRP cannot function effectively. Interestingly, states and
counties throughout the United States have received hundreds of millions of
dollars annually through . . . SCAAP, yet there are no provisions in the
program requiring state and county recipients to cooperate with the INS in
its removal efforts.” Our report recommended that INS request that OJP
change SCAAP provisions to require the full cooperation of state and local
governments “in the INS’s efforts to process and deport incarcerated
criminal aliens.” The current SCAAP guidelines do not contain any such
requirement.

      Government Accountability Office, Information on Criminal
Aliens in Federal and State Prisons and Local Jails, GAO-05-337R,
April 7, 2005. GAO reported a variety of statistical data regarding the
criminal alien population of federal, state, and local custodial facilities.

      Department of Homeland Security, Office of the Inspector
General, Detention and Removal of Illegal Aliens: Immigration and
Customs Enforcement, OIG-06-33, April 2006. The DHS Inspector
General reported that many criminal aliens in state and local custody will be
released at the conclusion of their sentences because ICE lacks the
resources to identify, detain, and remove them from the United States.

OIG Audit Approach

       We organized our audit of SCAAP to answer the four questions
Congress posed in Public Law 109-162. To answer these questions, we
interviewed officials at ICE; sent an OIG-developed questionnaire to 164
SCAAP recipients; visited seven locations that received SCAAP funding from
the FY 2005 appropriation; 43 reviewed files at those seven sites; interviewed
local officials; and performed research on the policies of SCAAP recipients
that may have designated themselves as immigration “sanctuary” sites. 44


       43
           We performed field work at the State of California Department of Corrections and
Rehabilitation; State of Oregon Department of Corrections; State of Texas Department of
Criminal Justice; Clark County, Nevada; Cook County, Illinois; City of New York, New York;
and the City and County of San Francisco, California. We selected these sites to have a mix
of state, county, and local jurisdictions that received SCAAP payments of at least $1 million
each. Collectively, these seven jurisdictions received $128.3 million, or 44.7 percent of the
SCAAP payments issued from the FY 2005 appropriation.
       44
          In this report, we use the term “sanctuary” site to refer to jurisdictions that may
have state laws, local ordinances, or departmental policies limiting the role of local law
enforcement agencies and officers in the enforcement of immigration laws.

                                            -7–
     CHAPTER 2 – SCAAP RECIPIENTS’ COOPERATION WITH ICE

       The first congressional question asked us to determine whether there
are recipients of SCAAP funds that do not fully cooperate with the efforts of
DHS to remove undocumented criminal aliens from the United States.
Congress did not define “fully cooperate,” nor did our review of immigration
legislation disclose any specific steps that localities are required to take to
help effect the removal of criminal aliens from the United States.

Views of ICE Officials

      We asked ICE officials to identify SCAAP recipients that they believe do
not fully cooperate with ICE in the removal of undocumented criminal aliens
from the United States. Because ICE does not maintain any records
describing SCAAP recipients that do not cooperate in the effort to remove
criminal aliens, they noted that any information they might provide us would
be anecdotal.

      We also contacted officials at ICE headquarters on several occasions
and solicited their views first about the cooperativeness of SCAAP recipients
generally and later about the seven jurisdictions where we performed field
work.

       Some ICE headquarters officials expressed the opinion that jurisdiction
over SCAAP should rest with ICE rather than BJA and that payments should
be contingent upon the recipient’s taking of certain affirmative steps, such
as participation in the “287(g)” program, to assist immigration enforcement.
Section 287(g) of the Immigration and Nationality Act provides that ICE
“may enter into a written agreement with a state, or any political subdivision
of a state, pursuant to which an officer or employee of the state or
subdivision, who is determined . . . to be qualified to perform a function of
an immigration officer in relation to the investigation, apprehension, or
detention of aliens in the United States (including the transportation of such
aliens across state lines to detention centers), may carry out such function
at the expense of the state or political subdivision and to the extent
consistent with state and local law.” 45

       Enforcing immigration law remains primarily a federal responsibility,
but Section 287(g) provides a mechanism for enlisting the help of state and
local law enforcement entities in this effort. Under Section 287(g), ICE
provides participating state and local law enforcement officers with the
training and subsequent authorization to identify, process, and when

      45
           8 U.S.C. § 1357(g) (1996).

                                        -8–
appropriate, detain immigration offenders who are encountered during
regular, daily law-enforcement activity. States or localities that wish to
participate in the program enter into a Memorandum of Understanding
(MOU) with ICE.

      Other ICE officials questioned why SCAAP applications are based on a
custody period in the year prior to the one in which payments are sought.
In the view of those officials, this payment for the past costs of incarceration
does not further the removal of undocumented criminal aliens currently in
the United States.

       ICE headquarters officials also stated they would like to have
graduated payments based on the SCAAP recipient taking steps toward the
removal of criminal aliens from the United States. Larger payments could be
provided to a jurisdiction when a final order of removal is obtained and for
participating in the “Section 287(g)” program to determine alienage. Those
officials believe this would result in payment for assisting ICE in identifying
and removing criminal aliens rather than merely housing them.

      When we asked ICE headquarters officials specifically about the seven
sites where we intended to perform field work, they declined to suggest
alternative sites. They also commented favorably about the cooperation ICE
received from every jurisdiction, except the City and County of San
Francisco. The ICE responses on the seven sites we visited included the
following observations:

       Clark County, Nevada – ICE has a very good working relationship with
the Clark County Sheriff's Office, including the county jail. The jail sends
information about foreign-born subjects to ICE on a 24-hour a day basis.
This information is processed, and, if appropriate, a detainer is placed on the
subject.

      Cook County, Illinois – The ICE Office of Investigations Special Agent
in Charge of the Chicago field office has had a good working relationship
with the Cook County jail for the last several years.

       New York, New York – The ICE Detention and Removal Operations
(DRO), New York Field Office, has received full cooperation from the
participating SCAAP local and state entities.

     State of California Department of Corrections and Rehabilitation – In
1994, the State of California amended the Penal Code to include Section
834(b), which requires all cities and localities within the State of California to


                                      -9–
verify the immigration status of individuals arrested and to contact [ICE]
when appropriate.

      State of Oregon Department of Corrections – All state facilities have
been very cooperative with respect to identifying, holding, and transferring
foreign nationals to ICE custody.

       State of Texas Department of Criminal Justice – The DRO Houston
Field Office reports significant cooperation with the Texas Department of
Criminal Justice in both the Texas Prison System and the Texas state jail
system. The Texas Department of Criminal Justice works closely with ICE in
assisting in identifying foreign-born aliens within the Texas prison and state
jail system and transports the prisoners to one central location in
[SENSITIVE INFORMATION REDACTED], Texas, where they can be
interviewed as well as presented for court proceedings. ICE has received
cooperation from operations at [SENSITIVE INFORMATION REDACTED]
regarding the state prisoners system. In addition to providing transportation
and identification assistance, the Texas Department of Criminal Justice
provides an entire facility for exclusive use by ICE.

      City and County of San Francisco – The San Francisco ICE Field Office
has encountered difficulties in its attempt to expand the Criminal Alien
Program (CAP). According to an agent working at ICE headquarters, the
San Francisco County Jail and its administration appear to have implemented
a “bare minimum of cooperation with ICE and the CAP to ensure they are
compliant with state rules and the SCAAP regulations.” Agents employed by
ICE are not permitted to access jail records without the authorization and
approval of the Sheriff. ICE agents are authorized to enter the jails to
interview prisoners and to access the “all-jail alphabetical list” of inmates.
However, ICE agents do not have the authorization to access booking cards,
housing cards or other jail records, including computers.

Results of OIG Survey

      We also surveyed 164 of the 752 state, county, and local agencies that
received SCAAP funding from the FY 2005 appropriation. 46

     Our criteria for selecting the SCAAP recipients we surveyed involved
grouping them into three categories: those that received at least $500,000,


      46
          The sample was selected judgmentally, and the results cannot be projected to the
universe of SCAAP recipients. See Appendix IV for a list of the jurisdictions we surveyed
and those that responded.


                                         - 10 –
those that received between $50,000 and $499,999, and those that received
less than $50,000.

      There were 59 entities that received at least $500,000, and we
selected all of them for our sample. Collectively, those 59 jurisdictions
received $256.9 million, or approximately 90 percent of all the SCAAP
payments made from FY 2005 funds. There were 157 entities that received
between $50,000 and $499,999 and 536 that received less than $50,000.
We judgmentally selected and surveyed 50 of the former group and 55 of
the latter. Together these groups received $7.9 million, or nearly 3 percent
of the SCAAP payments from FY 2005 funds.

      Our survey inquired whether the state or local agency asked arrestees
about their immigration status, informed ICE about criminal aliens in local
custody, accepted detainers from ICE, or alerted ICE prior to releasing
criminal aliens from local custody. 47 In our judgment, affirmative answers
to these questions would indicate a degree of cooperation in the effort to
remove criminal aliens from the United States. However, it is important to
note that a negative response by itself to one or more questions would not
necessarily establish a lack of cooperation on the part of the SCAAP
recipient.

     Survey responses were received from 99 (60 percent) of the 164
SCAAP recipients that we surveyed. The respondents received a total of
$205.4 million, or 71.6 percent of the SCAAP payments from FY 2005 funds.

Immigration Status of Arrested Individuals

                                      Survey Results
       Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
    If law enforcement officers from your jurisdiction arrest an individual on
    state or local charges, do they generally ask the subject about his or her
    immigration status?
            Yes             No                N/A            Unknown              DNR
            59              34                 4                 0                  2
   Source: Responses from SCAAP recipients to the OIG questionnaire

      Thirty-four respondents reported that they do not generally ask the
subject of an arrest about his or her immigration status. However, many of


       47
          A detainer is a notice from ICE asking officials at the detention facility of notify
ICE before releasing a detainee.

                                             - 11 –
those jurisdictions qualified their response. The following comments were
offered by some of the respondents who replied “no.”

      •   “[The [SENSITIVE INFORMATION REDACTED] Department of
          Corrections] does not have arrest authority; however every
          adjudicated offender is asked about his or her immigration status
          during in-processing.”

      •   “Each person arrested is asked their country of origin, not
          necessarily about immigration status.” [SENSITIVE INFORMATION
          REDACTED]

      •   “Generally no, unless there is reason to believe [the] individual has
          been involved in certain criminal activities such as arrested for, or
          has been convicted of a felony, violent crime, etc.” [SENSITIVE
          INFORMATION REDACTED]

      •   “. . . Pursuant to [state legislation] ‘a peace officer who has
          probable cause that an arrestee for a criminal offense is not legally
          present in the U.S. shall report such arrestee to the U.S. ICE office.
          . . .’” [SENSITIVE INFORMATION REDACTED]

      •   “It is not the Police Department's policy to ask, however, some
          officers ask voluntarily. It is not the Police Department's policy to
          take proactive enforcement action against undocumented aliens.
          However, if an encounter with an undocumented alien yields a
          wanted status for an immigration violation listed by another
          agency, the Police Department will confirm extradition before
          arrest.” [SENSITIVE INFORMATION REDACTED]

      •   “. . . Only on domestic battery and felonies, because on other
          charges ICE does not respond . . . anymore.” [SENSITIVE
          INFORMATION REDACTED]

      •   “The [[SENSITIVE INFORMATION REDACTED] Department of
          Corrections] is tasked with housing inmates after arrest and
          sentencing.”

      The responses from several localities emphasized the absence of
federal or state law requiring them to inquire into the immigration status of
arrestees.

      •   “There is no local ordinance or regulation from the County's Board
          of Supervisors authorizing the Department of Corrections to ask

                                     - 12 –
            arrestees about their immigration status.” [SENSITIVE
            INFORMATION REDACTED]

       •    “Not required under state or federal law.” [SENSITIVE
            INFORMATION REDACTED]

       •    “We do not ask the question for two reasons. First, some time
            back, the local law chiefs agreed to not engage in this type of
            behavior in the field. Second, a recent opinion by the California
            Attorney General states local and state law enforcement is not
            obligated to abide by the federal immigration statutes.” 48
            [SENSITIVE INFORMATION REDACTED]

       •    “Currently there are no policies or procedures in place requiring
            such action.” [SENSITIVE INFORMATION REDACTED]

       •    “Only if the investigation points to the fact that the individual(s)
            may be an undocumented alien.” [SENSITIVE INFORMATION
            REDACTED]

Informing ICE About Aliens in Custody

                                    Survey Results
       Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
    If law enforcement officers from your jurisdiction have reason to believe
    that someone they arrest may be an undocumented alien, do they generally
    inform the ICE that the individual is in their custody?
            Yes            No               N/A            Unknown            DNR
            78             17                 3                0                1
   Source: Responses from SCAAP recipients to the OIG questionnaire

     Seventeen respondents reported they do not generally inform ICE
when they have someone in custody who they believe may be an
undocumented criminal alien. However, many of those 17 jurisdictions
added qualifying remarks. In some instances, they were critical of a



       48
          We believe the respondent from [SENSITIVE INFORMATION REDACTED]
misinterpreted the California Attorney General’s opinion, which clearly states that federal
law preempts state law and requires state and local government entities to cooperate with
federal immigration agents. During a follow-up interview, the county official who gave this
response confirmed that he may have misinterpreted the opinion. See Appendix IX for the
opinion.

                                          - 13 –
perceived lack of response on the part of ICE, but there were other
explanatory factors as well.

     •   “Our experience has shown that ICE is not going to respond
         anyway.” [SENSITIVE INFORMATION REDACTED]

     •   “On every occasion we attempt to inform ICE but ICE does not
         always respond.” [SENSITIVE INFORMATION REDACTED]

     •   “Past history has shown that they will rarely pick the subjects up for
         transport.” [SENSITIVE INFORMATION REDACTED]

     •   “Depends on nature of crime.” [SENSITIVE INFORMATION
         REDACTED]

     •   “ICE agents come into our facility on a regular basis and review our
         records of undocumented aliens.” [SENSITIVE INFORMATION
         REDACTED]

     •   “Sheriff's deputies do not inform ICE. Detention staff will notify ICE
         if information obtained from a criminal history rap sheet or
         information obtained from our local database alerts [our]
         Department of previous contacts with ICE (releases to ICE or
         previously deported criminal alien).” [SENSITIVE INFORMATION
         REDACTED]

     •   “This is a sheriff’s department function.” [SENSITIVE
         INFORMATION REDACTED]

     •   “Law enforcement officers may contact ICE but jail staff do not. We
         have an ICE employee [who] regularly reviews inmate rosters.”
         [SENSITIVE INFORMATION REDACTED]

     •   “Most patrol officers do not have the time or know the number in
         order to inform ICE.” [SENSITIVE INFORMATION REDACTED]




                                    - 14 –
Accepting Detainers from ICE

                                  Survey Results
     Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
   Do the detention facilities in your jurisdiction generally accept detainers
   from ICE for undocumented criminal aliens in their custody?
         Yes             No               N/A           Unknown            DNR
         94               3                1                0                1
  Source: Responses from SCAAP recipients to the OIG questionnaire

      One possible measure of cooperation with ICE would be if the
respondent accepted detainers from ICE and continuing to hold criminal
aliens until ICE agents can take physical custody of them. The responses to
our questionnaire disclosed a widespread willingness to accept detainers
from ICE. Ninety-four of the 99 respondents reported that they accept such
detainers and the 3 that responded negatively added comments indicating
that they may have misinterpreted the question as asking about the lodging
of ICE prisoners.

Alerting ICE Before Releasing Aliens from Custody

                                  Survey Results
     Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
   Do the detention facilities in your jurisdiction generally alert ICE prior to
   releasing any undocumented criminal aliens in their custody?
         Yes             No               N/A           Unknown            DNR
         78              18                1                1                1
  Source: Responses from SCAAP recipients to the OIG questionnaire

      In answer to our question about alerting ICE before releasing
undocumented criminal aliens from local custody, 78 respondents reported
that they notify ICE and 18 stated they do not. We asked those that alert
ICE to report how much advance notice they provide and the responses
ranged from the date of release to substantially longer periods, as the
following comments illustrate:

     •   “At least 45 days in advance.” [SENSITIVE INFORMATION
         REDACTED]

     •   “Six months.” [SENSITIVE INFORMATION REDACTED]


                                        - 15 –
      •   “At any time between 6 and 30 days, depending on the type of
          release.” [SENSITIVE INFORMATION REDACTED]

      •   “ICE is informed of all foreign born state sentenced inmates and
          their earliest possible release dates when the inmate is processed in
          the county or Reception.” [SENSITIVE INFORMATION REDACTED]

      •   “As early in the sentence as possible.” [SENSITIVE INFORMATION
          REDACTED]

      •   “Upon initial booking.” [SENSITIVE INFORMATION REDACTED]

      •   “Only when ICE has placed a ‘hold’ on the person.” [SENSITIVE
          INFORMATION REDACTED]

      The jurisdictions that stated they do not notify ICE offered varying
explanations. For example, [SENSITIVE INFORMATION REDACTED], stated
it does not notify ICE in advance, “unless ICE asks us to.” However, as
previously noted, the county also reported that ICE agents regularly visit the
county facility and review the records of undocumented aliens. That being
the case, it would appear that additional notification by [SENSITIVE
INFORMATION REDACTED] may not be necessary. The [SENSITIVE
INFORMATION REDACTED] reported that “releases must occur on a timeline
of minutes and hours after the court issues the ruling.” [SENSITIVE
INFORMATION REDACTED], stated “in most cases we are unaware of [the]
status.”

      We asked two additional questions related to the cooperativeness of
SCAAP recipients in the effort to remove criminal aliens from the United
States. These questions deal with the transportation of criminal aliens to
ICE offices and participation in the Section 287(g) program.

Transporting Undocumented Criminal Aliens to the Nearest ICE Office

                                 Survey Results
      Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
   If ICE agents cannot transport an undocumented criminal alien from your
   facility, do your officers transport the alien to the nearest ICE office?
          Yes            No              N/A           Unknown        DNR
          23             70               2                0           4
   Source: Responses from SCAAP recipients to the OIG questionnaire



                                       - 16 –
      We are not aware of any requirement for states, counties, or localities
to transport undocumented criminal aliens to an ICE office. Therefore, an
answer of “no” to our question does not imply any lack of cooperation on the
part of the locality. However, we included this question because an answer
of “yes” may be reasonably considered an indicator of cooperation. In
response to the questionnaire, 23 respondents stated they would transport
undocumented criminal aliens to the nearest ICE office if ICE agents could
not do so, and 70 respondents reported they would not.

       The comments provided in reply to our question included the following.

       •    “We have never been in the position where ICE does not transport
            the alien from the state correctional facility to the ICE office. In the
            event ICE could not transport the alien, the [SENSITIVE
            INFORMATION REDACTED] would not transport the alien back to
            the nearest ICE office.” [SENSITIVE INFORMATION REDACTED]

       •    “Has not happened, though we would assist.” [SENSITIVE
            INFORMATION REDACTED]

Participation in the 287(g) Program

                                     Survey Results
       Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
    Are you aware of the program under Section 287(g) of the Immigration and
    Nationality Act by which local officers may be trained and authorized to
    perform certain immigration enforcement tasks?
          Yes              No               N/A          Unknown          DNR
          50               45                1               0              3
    Is your jurisdiction currently participating in the Section 287(g) program?
         Yes               No              N/A          Unknown           DNR
            49
         11                84               1               1              2
    If your jurisdiction does not currently participate in the Section 287(g)
    program, are you interested in entering into a Memorandum of
    Understanding with ICE to participate in the Section 287(g) program?
          Yes              No               N/A          Unknown          DNR
          33               41                6               6             13
   Source: Responses from SCAAP Recipients to OIG Questionnaire

      As mentioned previously, some ICE officials expressed a desire to
place SCAAP under the control of ICE and make SCAAP payments contingent

       49
            Although 11 respondents stated they participate in the “287(g)” program, ICE
officials told us only 7 jurisdictions have current MOUs. Other jurisdictions are negotiating
with ICE to participate in the “287(g)” program.

                                           - 17 –
upon participation in the “287(g)” program. Regardless of which agency has
responsibility for SCAAP, we believe that participation in the “287(g)”
program may be considered evidence of cooperation with ICE in the removal
of criminal aliens from the United States. For this reason we included
questions about the “287(g)” program in a questionnaire we sent to 164
recipients of FY 2005 SCAAP funding. We received responses from 99
jurisdictions and 33 of them indicated an interest in entering into an MOU to
participate in the “287(g)” program.

      Our questionnaire asked if the respondents were aware of the “287(g)”
program, whether they participated in it, and, if not, whether they were
interested in receiving information about it. In response to our three
questions, we received very few comments. The following are examples of
the comments provided by respondents.

      •   “We are currently in discussion with ICE officials in order to learn
          more about the Section 287(g) program; no decision has been
          made regarding participation in the program.” [SENSITIVE
          INFORMATION REDACTED]

      •   “Not sure - more information is needed.” [SENSITIVE
          INFORMATION REDACTED]

      •   “We are unfamiliar. We require additional information in order to
          answer correctly.” [SENSITIVE INFORMATION REDACTED]

      •   “We are in the approval process.” [SENSITIVE INFORMATION
          REDACTED]

      •   “This matter must be referred to a higher legal authority than what
          the respondent has.” [SENSITIVE INFORMATION REDACTED]

Results of Field Work

Interviews with Local ICE Officials

       At each of the sites where we performed field work, we asked local ICE
officials about the cooperativeness of the SCAAP recipient in question. The
views of those officials mirrored the views previously obtained from ICE
headquarters. Local ICE officials offered favorable comments about each of
the jurisdictions, except the City and County of San Francisco. Those ICE
officials stated that the San Francisco Sheriff’s Department accepts detainers
from ICE and promptly notifies ICE when criminal aliens are about to be
released from custody, but neither the Sheriff’s Department nor the Police

                                      - 18 –
Department [SENSITIVE INFORMATION REDACTED]. Moreover, the process
for interviewing aliens in the jail was described as “uncooperative” by the
local ICE officials, who also characterized relations with the Sheriff’s
Department as unfriendly and marked by “much animosity.”

Interviews with State and Local Officials

      We interviewed officials and reviewed files at seven jurisdictions that
received funding from the FY 2005 appropriation for SCAAP. The officials
whom we interviewed included local officials knowledgeable in the areas of
SCAAP and detention. Local officials from all seven jurisdictions reported
that their detention facilities: (1) accept ICE detainers for undocumented
criminal aliens in their custody; and (2) alert ICE before releasing
undocumented criminal aliens from custody.

     We asked whether law enforcement officers ask arrestees about their
immigration status and received mixed responses, but none that indicated
an unwillingness to cooperate with ICE in the removal of criminal aliens from
the United States. For example:

      •   At institutions in the [SENSITIVE INFORMATION REDACTED],
          correctional officers generally ask an inmate’s place of birth rather
          than immigration status. They defer the determination of an
          individual’s immigration status to ICE.

      •   At corrections facilities in the [SENSITIVE INFORMATION
          REDACTED], individuals are asked about their immigration status.

      •   In [SENSITIVE INFORMATION REDACTED], it is not considered the
          arresting officer’s mission to determine immigration status.
          Research into a detainee’s place of birth occurs during the booking
          process. Similarly, in the [SENSITIVE INFORMATION REDACTED],
          arrestees are asked about their place of birth rather than their
          immigration status during the booking process.

      •   In [SENSITIVE INFORMATION REDACTED], neither the city police
          nor personnel in the county sheriff’s office [SENSITIVE
          INFORMATION REDACTED]. However, the immigration status of a
          detainee is often determined during the classification process either
          by: (1) self-identification of the detainee as foreign-born;
          (2) queries of databases, including NCIC, the [SENSITIVE
          INFORMATION REDACTED] Law Enforcement Telecommunications
          System, and ICE’s Law Enforcement Support Center; and


                                     - 19 –
          (3) submission of fingerprints through the Automated Fingerprint
          Identification System.

     We also asked about notification of ICE when local jurisdictions have
someone in custody who may be an undocumented alien. The following are
some responses:

      •   If [SENSITIVE INFORMATION REDACTED] enforcement officers
          have reason to believe someone they arrest may be an
          undocumented alien, they inform ICE and seek further advice.

      •   [SENSITIVE INFORMATION REDACTED] facilities determine whether
          inmates are “foreign born” during the intake process. Biographical
          information sheets and a fingerprint cards for foreign born inmates
          are sent to ICE for review, usually during the first week of
          incarceration.

      •   The [SENSITIVE INFORMATION REDACTED] Department of
          Corrections sends ICE a referral if the booking process determines
          an inmate may have a foreign place of birth.

      •   [SENSITIVE INFORMATION REDACTED], sends a notice to ICE with
          a request for a prompt response. The county tries not to hold any
          inmate more than four hours past the scheduled release unless ICE
          places a detainer on that individual.

      •   When officers from the [SENSITIVE INFORMATION REDACTED]
          arrest an alien for a criminal offense, the police department notifies
          ICE based on information entered into the booking system.

      Local officials at two jurisdictions indicated a willingness to transport
criminal aliens from their facilities to the nearest ICE office if ICE agents
could not do so.

      •   [SENSITIVE INFORMATION REDACTED] corrections officials said
          inmates are transported without charge to an ICE facility or to an
          ICE contract facility if ICE transportation is not available.

      •   [SENSITIVE INFORMATION REDACTED] corrections officials state
          their officers transport alien inmates if necessary, but they added
          this happens only on rare occasions because releases are
          coordinated with ICE.



                                     - 20 –
       Officials at all seven of the sites we visited were aware of the “287(g)”
program, but none of the jurisdictions were participating in it. When asked
if they were interested in participating in the program, local officials offered
the following comments.

      •   The [SENSITIVE INFORMATION REDACTED] legislature is still
          evaluating the overall benefits to the [SENSITIVE INFORMATION
          REDACTED], whose mission is directed more toward rehabilitation
          of inmates than to immigration enforcement. At this time, officials
          do not believe the benefits are clear.

      •   [SENSITIVE INFORMATION REDACTED] officials believe
          participation in the “287(g)” program would probably conflict with
          state law.

      •   The [SENSITIVE INFORMATION REDACTED] is exploring
          participation in the program. Officials are awaiting more
          information so they can weigh the pros and cons. They are
          particularly concerned about who will pay for the state officers while
          engaged in “287(g)” activities, how many days officers would be
          required to participate, the reporting structure, and personnel
          issues.

      •   Officials from [SENSITIVE INFORMATION REDACTED]; [SENSITIVE
          INFORMATION REDACTED]; [SENSITIVE INFORMATION
          REDACTED], and the [SENSITIVE INFORMATION REDACTED] all
          stated their jurisdictions were not interested in participating in the
          “287(g)” program.

File Reviews

      We reviewed a total of 76 files relating to criminal aliens who had been
recently discharged from local custody at the 7 locations where we
performed field work. Our review disclosed that:

      •   ICE was notified in a timely manner that the 76 criminal aliens were
          in custody;

      •   ICE detainers were accepted for all 76 individuals;

      •   Seventy criminal aliens were transferred to ICE, all in a timely
          manner. Five of the remaining six individuals were transferred to
          other jurisdictions, such as a state prison, and one, a Cuban, was
          paroled because repatriation to Cuba was not possible.

                                     - 21 –
      This limited review of local files did not disclose evidence of any local
policy or procedure that we would consider less than fully cooperative with
ICE in the removal of criminal aliens.

Statement of Major Cities Chiefs of Police

        The complexity of determining whether jurisdictions fully cooperate
with ICE is further illustrated by a statement issued in June 2006, by the
Major Cities Chiefs of Police (MCC) organization. 50 This document describes
illegal immigration as a problem that “must be dealt with at the national
level” and details certain concerns that local agencies have. A key
paragraph states, “local police agencies must balance any decision to
enforce immigration laws with their daily mission of protecting and serving
diverse communities, while taking into account: limited resources; the
complexity of immigration laws; limitations on authority to enforce; risk of
civil liability for immigration enforcement activities and the clear need to
foster the trust and cooperation from the public including members of
immigrant communities.”

       The MCC statement also observes that “assistance and cooperation
from immigrant communities is especially important when an immigrant,
whether documented or undocumented, is the victim of or witness to a
crime. These persons must be encouraged to file reports and come forward
with information. Their cooperation is needed to prevent and solve crimes
and maintain public order, safety, and security in the whole community. . . .
Immigration enforcement by local police would likely negatively effect (sic)
and undermine the level of trust and cooperation between local police and
immigrant communities. If the undocumented immigrant’s primary concern
is that they will be deported or subjected to an immigration status
investigation, then they will not come forward and provide needed
assistance and cooperation. Distrust and fear of contacting or assisting the
police would develop among legal immigrants as well.”

       The MCC statement taken as a whole articulates a two-pronged
position that we frequently encountered in our review, namely that many
state, county, and local law enforcement agencies are unwilling to initiate
immigration enforcement but have policies that suggest they are willing to


       50
          See Appendix V for the MCC’s “Nine-Point Position Statement.” The MCC
describes its membership as the 57 Chief Executive Officers of police departments located
within metropolitan areas with a population of more than 1.5 million population and that
employ more than 1,000 law enforcement officers.

                                          - 22 –
cooperate with ICE when they arrest individuals on state or local charges
and learn that those individuals may be criminal aliens.

Additional Research

        We further examined the issue of cooperation between SCAAP
recipients and ICE by researching the policies of localities that may have
laws, resolutions, or other policies limiting the role of local agencies in the
enforcement of immigration legislation. In some cases, those localities have
designated themselves with terms such as a “sanctuary city” or a “civil
liberties safe zone.” Our research revealed much anecdotal information, but
little in the way of formal policies.

       We were guided initially in our research by listings of sanctuary cities
posted on the websites of several organizations. 51 Later, we focused our
search on jurisdictions that received SCAAP funding of at least $1 million
from the FY 2005 appropriation. We searched the websites for those
jurisdictions in an effort to locate policy statements affecting how local law
enforcement agencies interact with ICE in the effort to remove criminal
aliens from the United States.

       We were able to locate an official “sanctuary” policy for only two
jurisdictions that received at least $1 million in SCAAP funding, the State of
Oregon, which received $3.4 million, and the City and County of San
Francisco, which received $1.1 million and has designated itself as a “City
and County of Refuge.” We also located an Executive Order issued by the
Mayor of New York limiting the activities of local law enforcement agencies
and officers in the enforcement of immigration law. 52 However, in each
instance, the local policy either did not preclude cooperation with ICE or else
included a statement to the effect that those agencies and officers must
assist ICE or share information with ICE as required by federal law.

      The Oregon policy begins by stating, “No law enforcement agency of
the State of Oregon or of any political subdivision of the state shall use
agency moneys, equipment or personnel for the purpose of detecting or
apprehending persons whose only violation of law is that they are persons of
foreign citizenship present in the United States in violation of federal
immigration laws.” However, the policy goes on to state that a law

       51
           In using the information posted by these organizations, we do not endorse any
position they may advocate regarding immigration enforcement. We simply used their lists
as leads pointing toward jurisdictions that may have policies such as those described in our
congressional mandate.
       52
            See Appendix VII.

                                          - 23 –
enforcement agency may exchange information with federal immigration
authorities to “verify the immigration status of a person if the person is
arrested for any criminal offense;” or to “request criminal investigation
information with reference to persons named in [federal] records.” 53

       San Francisco has designated itself as a “City and County of Refuge”
and has limited the extent to which municipal agencies and employees may
assist in immigration enforcement. The City Administrative Code states that
“no department, agency, commission, officer or employee . . . shall use any
City funds or resources to assist in the enforcement of federal immigration
law or to gather or disseminate information regarding the immigration status
of individuals . . . unless such assistance is required by federal or state
statute, regulation or court decision.” [Emphasis added.] The proviso
requiring compliance with federal law reinforces our view that there is
insufficient evidence to conclude that San Francisco fails to cooperate with
ICE’s efforts to remove undocumented aliens.

       We did not locate a “sanctuary city” designation for the City of New
York, which received $15.9 million in SCAAP funding. However, we located a
Mayor’s Executive Order that enunciates a policy that local law enforcement
officers will not initiate immigration enforcement but will cooperate with
federal immigration authorities in some respects. The Mayor’s Executive
Order 41 addresses local law enforcement as it relates to immigration
matters and states, “Law enforcement officers shall not inquire about a
person’s immigration status unless investigating illegal activity other than
mere status as an undocumented alien.” However, in the next paragraph it
states, “Police officers and peace officers, including members of the Police
Department and the Department of Correction, shall continue to cooperate
with federal authorities in investigating and apprehending aliens suspected
of criminal activity.” 54




      53
           See Appendix VI.
      54
           See Appendix VII.

                                    - 24 –
 CHAPTER 3 – COMMUNICATION BETWEEN SCAAP RECIPIENTS AND
                          ICE

       The second congressional question asked us to determine whether any
SCAAP recipients have in effect a policy that violates section 642 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1373). This statute, in effect, prohibits any interference in the
free exchange of immigration-related information between state or local law
enforcement and federal immigration authorities. Two key provisions of the
statute are 8 U.S.C. § 1373 (a) and (b), which state:

          •    Notwithstanding any other provision of Federal, State, or local law,
               a Federal, State, or local government entity or official may not
               prohibit, or in any way restrict, any government entity or official
               from sending to, or receiving from, Immigration and Naturalization
               Service information regarding the citizenship or immigration status,
               lawful or unlawful, or any individual.

          •    Notwithstanding any other provision of Federal, State, or local law,
               no person or agency may prohibit, or in any way restrict, a Federal,
               State, or local government entity from doing any of the following
               with respect to information regarding the immigration status, lawful
               or unlawful, of any individual:

                  o Sending such information to, or requesting or receiving such
                    information from, Immigration and Naturalization Service.

                  o Maintaining such information.

                  o Exchanging such information with any other Federal, State, or
                    local government entity. 55

Views of ICE Officials

       ICE officials objected to provisions of the administrative code of the
City and County of San Francisco that limit the ability of local agencies and
officers to communicate immigration information to ICE.

      The City Administrative Code states “no department, agency,
commission, officer or employee . . . shall use any City funds or resources to
assist in the enforcement of federal immigration law or to gather or

          55
               The statutory references to the Immigration and Naturalization Service now apply
to ICE.

                                              - 25 –
disseminate information regarding the immigration status of individuals in
the City and County of San Francisco unless such assistance is required by
federal or state statute, regulation, or court decision.” [Emphasis added.]

       The Code also states “nothing in this Chapter shall prohibit, or be
construed as prohibiting, a law enforcement officer from identifying or
reporting any person pursuant to a state or federal law or regulation who is
in custody after being booked for the alleged commission of a felony and is
suspected of violating the civil provisions of the immigration laws.” Finally,
the Code states that “nothing in this chapter shall preclude any . . .
department, agency, commission, officer or employee from (a) reporting
information to the INS regarding an individual who has been booked at any
county jail facility, and who has been previously been convicted of a felony
committed in violation of the laws of the State of California, which is still
considered a felony under state law; (b) cooperating with an INS request for
information regarding an individual who has been convicted of a felony
committed in violation of the laws of the State of California, which is still
considered a felony under state law; or (c) reporting information as required
by federal or state statute, regulation or court decision, regarding an
individual who has been convicted of a felony committed in violation of the
laws of the State of California, which is still considered a felony under state
law.” 56

       As mentioned in the preceding chapter, ICE officials considered these
policies of the City and County of San Francisco as the “bare minimum” of
cooperation. However, in light of the specific provisions requiring
compliance with federal law, we cannot conclude that San Francisco’s
policies are contrary to 8 U.S.C. § 1373.

Results of OIG Survey

       We included a question in our survey asking about laws, regulations,
or policies affecting each organization that might restrict the free exchange
of immigration-related information between local law enforcement agencies
and ICE. The 99 jurisdictions that responded to the questionnaire stated
almost unanimously that there was no legislation or policy impeding the
ability of local officers and agencies to communicate with ICE on
immigration-enforcement matters. The detailed results are displayed in the
following table.




      56
         See Appendix VIII. The San Francisco City Administrative Code references to INS
now apply to ICE.

                                        - 26 –
                                  Survey Results
      Legend: N/A=Not Applicable; DNR=Did Not Respond to this Question.
   In your jurisdiction, is there currently in effect any limitation on the ability
   of local law enforcement officers or agencies to exchange information
   relating to immigration enforcement due to:
   State law?
         Yes              No             N/A            Unknown            DNR
          0               96               1                2               0
   Local ordinance?
         Yes              No              N/A           Unknown            DNR
          1               94               1                 0               3
   Executive order?
         Yes              No              N/A           Unknown            DNR
          0               96               1                 0               2
   Departmental policy?
         Yes              No              N/A           Unknown            DNR
          1               96               1                 0               1
   Source: Responses from SCAAP recipients to the OIG questionnaire

       The City and County of San Francisco gave a qualified “yes” in
response to our queries about the existence of a local ordinance or a
departmental policy limiting the ability of local law enforcement officers or
agencies to exchange information with ICE relating to immigration
enforcement. The response to the survey included a copy of the previously
cited sections of the City Administrative Code and a police department
General Order, which states that generally “a member [of the police
department] shall not inquire into an individual’s immigration status or
release or threaten to release information to the INS regarding an
individual’s identity or immigration status.” However, the General Order
makes exceptions that parallel those enumerated in the City Administrative
Code.

Results of Field Work

       In our interviews with local officials at the seven sites, we asked if
their jurisdictions currently have in effect any statute, ordinance, executive
order, or other legislation or official policy prohibiting local law enforcement
agencies and officers from freely exchanging information with ICE on the
citizenship or immigration status of individuals. Officials at four of the seven
sites we visited replied unequivocally, “no,” while officials at the other three
sites gave qualified answers.

      •   The State of Oregon has a state “sanctuary” statute, but the
          officials whom we interviewed believe it does not infringe on the
          exchange of information with ICE.

                                        - 27 –
     •   Officials from the City of New York informed us there is no
         prohibition on exchanging information with ICE on individuals who
         have been arrested.

     •   Local officials stated the City of San Francisco Police Department’s
         policy is “consistent with its obligations under state and federal law,
         to adhere to the City of Refuge Ordinance. This ordinance prohibits
         the use of City resources to assist in the enforcement of federal
         immigration laws except in certain limited circumstances consistent
         with state and federal law.”

       As discussed in the preceding chapter, our examination of official
policies published by those jurisdictions confirmed the views expressed by
local officials.




                                    - 28 –
  CHAPTER 4 – RECIDIVISM OF CRIMINAL ALIENS RELEASED FROM
                       LOCAL CUSTODY

       The third congressional question asked us to determine how many
criminal offenses were committed by criminal aliens who were released from
local custody without a referral to DHS for removal from the United States.

      To address this question, we performed limited testing to determine
the number of subsequent arrests of criminal aliens who were released from
state or local custody. We based our testing on information from the vetted
FY 2004 SCAAP database, which was the last year when ICE reported to BJA
on the status of every person identified in support of applications for SCAAP
funding. 57 The vetted database included 262,105 criminal histories.

NCIC Query

      We requested assistance from the Federal Bureau of Investigation
(FBI) to have the vetted FY 2004 SCAAP database compared to arrest data
in the FBI’s National Crime Information Center (NCIC). 58

       The FBI ran two queries, one for SCAAP records that included an FBI
number, and another for those records that lacked an FBI number. For the
latter group, the FBI queried NCIC using the name and date of birth for each
individual listed in the vetted data.

      The FBI provided us with nearly 433,000 individual text files that were
not searchable by automated means. Because the files were not in a
searchable format, we were not able to quantify all the arrests that occurred
subsequent to the cutoff date for FY 2004 funding, June 30, 2003. Instead,
we reviewed a judgmental sample of 100 criminal histories for evidence of
arrests of individuals subsequent to the time when their incarceration was
used to support an application for SCAAP funding.

      We sampled 53 from records that had FBI numbers and 47 from
records that lacked such numbers. 59 The criminal histories for 73 individuals
documented at least one arrest after June 30, 2003. Those 73 individuals

       57
          FY 2004 SCAAP funding was based on the incarceration of criminal aliens between
July 1, 2002, and June 30, 2003.
       58
          NCIC is a computerized database of criminal justice information available to law
enforcement agencies nationwide. The NCIC database consists of millions of records
arranged in 18 files, including one relating to immigration violators.
       59
            This number is issued by the FBI to track arrests and fingerprint records.

                                            - 29 –
accounted for a total of 429 arrests based on 878 charges and included 241
convictions. These figures represent an average of nearly six arrests per
individual.

      The charges for the 73 individuals ranged from traffic violations and
trespassing to more serious crimes, such as burglary or assault. Some of
those charges included:

       •    166 drug-related;

       •    37 immigration-related;

       •    213 burglary, robbery, or theft;

       •    40 assault;

       •    10 property damage;

       •    3 terrorist threat; 60 and

       •    13 weapons charges.

      Based on this limited sample, we cannot statistically extrapolate the
number of offenses committed by undocumented criminal aliens who were
released from local custody without a referral to ICE. Based on the
information available to us in the criminal histories, we could not determine
the number of the criminal aliens in our sample that were deported, if any,
and later arrested after reentering the United States. We also could not
determine if ICE was notified before the criminal aliens in our sample were
released from custody. But if this data is indicative of the full population of
nearly 262,105 criminal histories, the rate at which released criminal aliens
are rearrested is extremely high.




       60
            The “terrorist threat” cases related to misdemeanor charges based on domestic
disputes.


                                           - 30 –
     CHAPTER 5 – CRIMINAL ALIENS RELEASED DUE TO LACK OF
                         RESOURCES

       The fourth congressional question asked us to determine how many of
the criminal aliens who were released from custody without a referral to ICE
were released for lack of sufficient detention space or funding to hold them.
While we believe this happens regularly, our review could not identify
specific instances of such releases because ICE does not track the number of
aliens released from local custody due to lack of the necessary resources to
detain them. While our review did not identify any instances of such
releases, it is important to note that the Inspector General of the
Department of Homeland Security has reported: (1) a shortage of space
available for housing aliens in ICE custody; and (2) the possible release in
FY 2007 of a substantial number of removable criminal aliens from state or
local custody because ICE does not have the resources to identify, detain,
and remove them.

Results of OIG Survey

      To examine this question we relied on responses to the questionnaire
that we sent to 164 SCAAP recipients. Our questionnaire included a request
that the respondents provide the number of criminal aliens who were
released from custody between October 1, 2004, and June 30, 2006,
because the respondent lacked the space or funds to detain those aliens.
None of the respondents reported having released criminal aliens from
custody due to lack of resources. Specifically, 9 replied “none,” 78 replied
“not applicable,” 7 replied “unknown,” and 5 did not answer the question.
Some jurisdictions added comments such as the following.

     •   “No, ICE was always contacted.” [SENSITIVE INFORMATION
         REDACTED]

     •   “Any arrestees without local charges or holds are released by law.”
         [SENSITIVE INFORMATION REDACTED]

     •   “None; again, referral was made but ICE did not place detainer on
         subjects.” [SENSITIVE INFORMATION REDACTED]

     •   “None – primarily due to ICE [being] unable or unwilling to
         transport.” [SENSITIVE INFORMATION REDACTED]




                                   - 31 –
DHS Inspector General Report

        Even though the state, county, and local respondents to our
questionnaire did not report releasing undocumented criminal aliens because
of insufficient local resources, we noted an issue regarding the lack of space
available to ICE to detain aliens in custody. In an April 2006 report, the
Inspector General of the Department of Homeland Security stated, “[the
Detention and Removal Operations (DRO)] estimates that in FY 2007 there
will be 605,000 foreign-born individuals admitted to state correctional
facilities and local jails during the year for committing crimes in the U.S. 61
Of this number, DRO estimates half (302,500) will be removable aliens.
Most of these incarcerated aliens are being released into the U.S. at the
conclusion of their respective sentences because DRO does not have the
resources to identify, detain, and remove these aliens under its Criminal
Alien Program (CAP). It is estimated that DRO would need an additional
34,653 detention beds, at an estimated cost of $1.1 billion, to detain and
remove [them].” 62

       The DHS Inspector General went on to state, “additionally, DRO’s
ability to detain and remove illegal aliens with final orders of removal is
impacted by: (1) the propensity of illegal aliens to disobey orders to appear
in immigration court; (2) the penchant of released illegal aliens with final
orders to abscond; (3) the practice of some countries to block or inhibit the
repatriation of its citizens; and (4) two recent U.S. Supreme Court decisions
which mandate the release of criminal and other high-risk aliens 180 days
after the issuance of the final removal order except in ‘Special
Circumstances.’ Collectively, the bed space, personnel and funding
shortages coupled with the other factors, has created an unofficial ‘mini-
amnesty’ program for criminal and other high-risk aliens.”

      The DHS Inspector General reported that 345,006 criminal aliens were
apprehended between FYs 2001 and 2004, of which 27,947 (8 percent) were
released. However, the DHS Inspector General could not determine whether
they were released for lack of detention space or for other reasons because
ICE does not track that information.




      61
         At our exit conference, representatives of DRO stated that references to “DRO” in
the DHS OIG report would in this context be more appropriately read as “ICE.”
      62
          Department of Homeland Security, Office of the Inspector General. Detention and
Removal of Illegal Aliens: U.S. Immigration and Customs Enforcement (ICE), OIG-06-033,
April 2006, p. 2.

                                         - 32 –
         STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      We have performed a congressionally mandated audit of the State
Criminal Alien Assistance Program (SCAAP). The audit generally covered
FYs 2004 and 2005, included a review of selected activities, and was
conducted in accordance with the Government Auditing Standards.

      In connection with this audit, and as required by the standards, we
reviewed the laws and regulations relating to SCAAP, including:

     •    8 U.S.C. § 1231(i) (1996), which authorized SCAAP;

     •    8 U.S.C. § 1373 (1996), which relates to open communication
          between local law enforcement and ICE on immigration matters;
          and

     •    8 U.S.C. § 1357(g) (1996), which authorizes the training of local
          law enforcement agents in immigration enforcement.

     Our audit did not disclose any non-compliance on the part of BJA or
ICE with provisions of the applicable laws and regulations.




                                    - 33 –
              STATEMENT ON INTERNAL CONTROL STRUCTURE

      In planning and performing our audit of the SCAAP payment program,
we considered the internal control structure of BJA to the extent necessary
for the purpose of determining our procedures. Because the scope of our
audit was defined by congressional mandate, we did not evaluate BJA’s
overall internal control structure. Through interviews with officials from OJP,
BJA, and ICE, we gained an understanding of the process of applying for,
vetting, and awarding SCAAP payments. Our review did not identify any
material internal control weaknesses.




                                    - 34 –
                                                                APPENDIX I

           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

      In Public Law 109-162, Congress directed us to “perform a study, and
report to the Committee on the Judiciary of the United States House of
Representatives and the Committee on the Judiciary of the United States
Senate” on four questions regarding SCAAP. The objective of our audit was
to respond to those questions by determining:

     (1) Whether there are States, or political subdivisions of a State, that
     have received compensation under Section 241(i) of the Immigration
     and Nationality Act (8 U.S.C. § 1231(i)) and are not fully cooperating
     in the Department of Homeland Security’s efforts to remove from the
     United States undocumented criminal aliens (as defined in paragraph
     (3) of such section.

     (2) Whether there are States, or political subdivisions of a State, that
     have received compensation under section 241(1) of the Immigration
     and Nationality Act (8 U.S.C. § 1231(i)) and that have in effect a
     policy that violates section 642 of the Illegal Immigration Reform and
     Immigrant Responsibility Act of 1996 (8 U.S.C. § 1373).

     (3) The number of criminal offenses that have been committed by
     aliens unlawfully present in the United States after having been
     apprehended by States of local law enforcement officials for a criminal
     offense and subsequently being released without being referred to the
     Department of Homeland Security for removal from the United States.

     (4) The number of [criminal] aliens . . . who were released because
     the State or political subdivision lacked space or funds for detention of
     the alien.

      We conducted our audit in accordance with the Government Auditing
Standards and, accordingly, included such tests of records and procedures
as we considered necessary to respond to the congressional mandate. The
scope of our work generally covered the state, county, and local law
enforcement agencies that received SCAAP funding from the FY 2004 and
FY 2005 appropriations.

     Our methodology included interviews with officials, distribution of an
OIG-developed questionnaire, review of files, queries of automated systems
and other research. We interviewed BJA and ICE officials at their respective
headquarters in Washington, D.C. In addition, we:

                                   - 35 –
•   analyzed BJA records relating to the recipients of SCAAP funding;

•   submitted a questionnaire to 164 selected recipients of SCAAP
    funding;

•   researched other relevant information, especially relating to
    localities that have designated themselves as sanctuary cities;

•   performed field work, including interviews and file reviews at the
    offices of SCAAP recipients in Austin, Texas; Chicago, Illinois; Las
    Vegas, Nevada; New York, New York; Sacramento, California;
    Salem, Oregon; and San Francisco, California;

•   interviewed local ICE officials whose area of responsibility covered
    the jurisdictions mentioned above; and

•   arranged for the Federal Bureau of Investigation to query the
    National Crime Information Center database using SCAAP data sets
    in an effort to identify repeat arrests of criminal aliens.




                               - 36 –
                     APPENDIX II
PUBLIC LAW 109-162




      - 37 –
- 38 –
                                                                    APPENDIX III

                 SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005           FY 2004
                             Total                $287,143,095      $281,605,292
 State                    Jurisdiction              Amount            Amount
AK       Alaska Department of Corrections               $26,553           $33,417
AL       State of Alabama                                45,747            61,085
AL       Montgomery County                                8,709             7,404
AL       De Kalb County                                   4,482             1,009
AL       Coffee County                                                      2,454
AR       State of Arkansas                              148,764           106,382
AR       Washington County                               50,329            25,915
AR       Benton County                                   29,991            28,348
AR       Carroll County                                   9,153             4,526
AR       Sebastian County                                 8,420            12,577
AR       Pope County                                      6,412            12,295
AR       Polk County                                      1,561             2,718
AR       Hempstead County                                     996
AR       Boone County                                         403
AR       Independence County                                                3,211
AZ       State of Arizona                            12,139,791         6,808,219
AZ       Maricopa County                              1,297,752           922,938
AZ       Pima County                                    407,301           747,878
AZ       Yuma County                                    220,339           217,921
AZ       Yavapai County                                  93,802           114,615
AZ       Cochise County                                  72,681           133,904
AZ       Pinal County                                    55,072            70,660
AZ       Santa Cruz County                               31,453
AZ       Gila County                                     23,623            21,675
AZ       Mohave County                                   12,307            32,947
AZ       Greenlee County                                  7,503                 581
AZ       Navajo County                                    6,021             8,733
AZ       Graham County                                    2,844             3,296
CA       State of California                         85,953,191        77,356,015
CA       Los Angeles County                          12,530,034        13,876,508
CA       Orange County                                6,562,437         4,593,198
CA       San Diego County                             2,346,881           795,416
CA       Santa Clara County                           1,616,147         1,382,031
CA       Riverside County                             1,254,534         1,349,430
CA       San Francisco City & County                  1,087,199         1,405,674

                                         - 39 –
                SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005         FY 2004
                             Total               $287,143,095    $281,605,292
 State                   Jurisdiction              Amount          Amount
CA       Fresno County                               1,045,772       1,025,096
CA       San Mateo County                              955,843       1,185,621
CA       Sacramento County                             873,005       1,168,675
CA       Monterey County                               735,201         925,407
CA       Kern County                                   613,980         882,708
CA       Sonoma County                                 604,578         784,290
CA       Contra Costa County                           592,346         520,503
CA       Ventura County                                564,332         355,127
CA       San Bernardino County                         407,580         487,145
CA       Alameda County                                403,662         223,619
CA       Tulare County                                 402,655         502,577
CA       Santa Barbara County                          380,622         516,480
CA       Solano County                                 273,742          23,266
CA       Marin County                                  204,748         310,219
CA       Napa County                                   184,611         201,916
CA       San Joaquin County                            181,990         193,916
CA       Santa Cruz County                             173,291         212,435
CA       Stanislaus County                             161,626         227,381
CA       Merced County                                 124,493         134,847
CA       El Dorado County                              114,379          92,035
CA       Kings County                                  114,174         203,337
CA       San Luis Obispo County                         94,654         140,418
CA       Mendocino County                               76,388          55,543
CA       Placer County                                  71,636          89,111
CA       Imperial County                                56,370         136,356
CA       Yolo County                                    55,703          94,262
CA       Nevada County                                  34,847          58,273
CA       Sutter County                                  34,570          39,722
CA       Tehama County                                  32,942          46,980
CA       Mono County                                    28,913          22,585
CA       Humboldt County                                27,626          49,656
CA       City of Santa Ana                              21,202          41,524
CA       Glenn County                                   16,559          19,235
CA       Yuba County                                    16,472          19,257
CA       City of Anaheim                                16,259          33,306
CA       Colusa County                                  11,836


                                        - 40 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                             Total               $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
CA       Inyo County                                    10,678            13,302
CA       Butte County                                    9,790            19,934
CA       Lake County                                     8,055            12,626
CA       Siskiyou County                                 7,823             7,117
CA       Tuolomne County                                 5,591             6,063
CA       Plumas County                                   4,595             2,437
CA       Madera County                                   2,785             8,209
CA       Calaveras County                                1,558             5,331
CA       Amador County                                       733           2,754
CA       Shasta County                                                    40,342
CO       State of Colorado                           2,358,707         3,104,425
CO       Denver City & County                          950,665           997,382
CO       Arapahoe County                               389,607           332,753
CO       Boulder County                                267,084           241,687
CO       Jefferson County                              139,824
CO       Weld County                                   127,640           217,172
CO       Adams County                                  115,259           128,316
CO       El Paso County                                100,370           198,068
CO       Garfield County                               100,232            88,553
CO       Eagle County                                   78,319            71,649
CO       Pueblo County                                  71,749            58,963
CO       Larimer County                                 64,679            46,613
CO       Douglas County                                 63,949            92,396
CO       Pitkin County                                  50,679            46,151
CO       Morgan County                                  49,935            66,802
CO       Mesa County                                    18,356            43,365
CO       Summit County                                  14,885
CO       Delta County                                   12,964             9,606
CO       Lincoln County                                  9,442             7,374
CO       San Miguel County                               8,625            33,548
CO       Moffat County                                   7,631
CO       Sedgwick County                                 7,418             4,541
CO       Bent County                                     1,967                 343
CO       Baca County                                                       1,941
CT       State of Connecticut                          779,697           900,356
DC       District of Columbia                           81,762            44,472


                                        - 41 –
                     SCAAP Recipients – FYs 2005 and 2004
                                                        FY 2005         FY 2004
                                 Total                $287,143,095    $281,605,292
     State                    Jurisdiction              Amount          Amount
DE           State of Delaware                              132,951         131,263
FL           State of Florida                            12,806,110      11,778,031
FL           Collier County                                 597,409         236,938
FL           Hillsborough County                            233,499         248,223
FL           Pinellas County                                194,285         180,266
FL           Lee County                                     186,685         142,645
FL           Sarasota County                                148,472          60,064
FL           Martin County                                  145,025         130,554
FL           Orange County                                  139,138         173,276
FL           Osceola County                                  89,780
FL           Seminole County                                 88,956         132,497
FL           Miami Dade County                               78,587         140,309
FL           Broward County                                  75,320         171,361
FL           Brevard County                                  66,355          60,660
FL           Lake County                                     61,813          70,897
FL           Volusia County                                  55,833          79,046
FL           Indian River County                             54,704          61,934
FL           St. Lucie County                                50,793           5,771
FL           Okeechobee County                               43,124          67,629
FL           Pasco County                                    32,848          46,722
FL           Polk County                                     31,815          84,703
FL           Leon County                                     31,721          47,624
FL           Palm Beach County                               29,817         138,714
FL           DeSoto County                                   29,569          43,104
FL           Alachua County                                  26,783          18,252
FL           Clay County                                     24,970          10,585
FL           Hendry County                                   23,393
FL           Hardee County                                   22,887          36,953
FL           Marion County                                   19,490          29,065
FL           Glades County                                   17,801
FL           Highlands County                                14,940          35,240
FL           Putnam County                                   13,111
FL           Levy County                                      7,341           6,097
FL           Suwannee County                                  6,944           9,184
FL           Taylor County                                    3,012
FL           Gilchrist County                                 1,661           2,483


                                             - 42 –
                    SCAAP Recipients – FYs 2005 and 2004
                                                        FY 2005         FY 2004
                                 Total                $287,143,095    $281,605,292
     State                    Jurisdiction              Amount          Amount
FL           Bradford County                                  1,203               160
FL           Santa Rosa County                                                9,816
FL           Sumter County                                                    8,596
FL           Madison County                                                       146
GA           State of Georgia                             1,393,149       1,885,056
GA           Cherokee County                                113,614          41,410
GA           DeKalb County                                   79,948
GA           Hall County                                     36,833          71,524
GA           Forsyth County                                  32,322          28,847
GA           Chatham County                                  31,561          42,292
GA           Houston County                                  25,028          14,342
GA           Cobb County                                     22,301
GA           Augusta Richmond County                         19,559          17,809
GA           Muscogee County                                 19,357          12,518
GA           Habersham                                       19,081
GA           Floyd County                                    17,323          23,854
GA           Toombs County                                   13,811          25,454
GA           Walton County                                    9,028           1,813
GA           Newton County                                    8,684           4,081
GA           Carroll County                                   6,556
GA           Gilmer County                                    5,359           5,250
GA           Monroe County                                    2,577
GA           Lee County                                       2,104           8,487
GA           Crisp County                                     1,291           1,519
GA           Walker County                                    1,257
GA           Grady County                                     1,209
GA           Decatur County                                                   5,790
GA           Kennesaw County                                                  1,141
GU           Government of Guam                             204,042
HI           State of Hawaii                                195,595         171,317
IA           State of Iowa                                  344,266         477,575
IA           Woodbury County                                 57,725          94,146
IA           Johnson County                                  22,293          21,568
IA           Polk County                                     16,332          23,040
IA           Story County                                    13,740          21,376
IA           Black Hawk County                                8,844          13,792


                                             - 43 –
                      SCAAP Recipients – FYs 2005 and 2004
                                                         FY 2005           FY 2004
                                 Total                 $287,143,095      $281,605,292
     State                   Jurisdiction                Amount            Amount
IA           Crawford County                                   7,033             5,322
IA           Mahaska County                                    2,611             1,607
IA           Louisa County                                     2,178             3,642
IA           Davis County                                      1,673                 764
IA           Jefferson County                                      362               163
IA           Wright County                                                      10,319
ID           Idaho Department of Correction                  258,458           350,299
ID           Canyon County                                   112,759            79,581
ID           Ada County                                       92,502            70,057
ID           Cassia County                                    25,601            30,238
ID           Madison County                                   20,508            17,841
ID           Blaine County                                    17,612            38,904
ID           Bonneville County                                16,719            24,957
ID           Washington County                                 9,794            11,170
ID           Elmore County                                     9,273            10,222
ID           Bannock County                                    8,830            10,584
ID           Bingham County                                    8,076            19,041
ID           Gooding County                                    7,369             4,239
ID           Twin Falls County                                 7,103             9,091
ID           Jefferson County                                  6,191            11,821
ID           Power County                                      2,873             3,889
ID           Owyhee County                                     1,987             4,475
ID           Teton County                                      1,582             2,390
ID           Latah County                                                            891
IL           State of Illinois                             4,731,269
IL           Cook County                                   1,926,114         1,957,320
IL           Lake County                                     262,713           497,325
IL           Kane County                                     189,347           187,952
IL           DuPage County                                   168,975           349,826
IL           McHenry County                                  129,710           119,588
IL           Winnebago County                                 32,827            76,726
IL           Will County                                      17,029            69,160
IL           DeKalb County                                    14,869             4,514
IL           Rock Island County                               12,496            23,042
IL           Kendall County                                   10,870             6,455
IL           LaSalle County                                    7,208            10,580


                                              - 44 –
                    SCAAP Recipients – FYs 2005 and 2004
                                                       FY 2005           FY 2004
                                Total                $287,143,095      $281,605,292
     State                   Jurisdiction              Amount            Amount
IL           McLean County                                   7,007             5,986
IL           Tazewell County                                 6,784
IL           Peoria County                                   5,321             3,378
IL           Champaign County                                5,284            13,797
IL           Ogle County                                     4,506             1,165
IL           Henry County                                    4,180
IL           Bureau County                                   1,253
IL           Dewitt County                                       710
IL           Jo Daviess County                                   442           1,030
IL           Livingston County                                   439           1,820
IL           Williamson County                                   250
IL           Kankakee County                                                   7,094
IL           Knox County                                                           935
IL           Woodford County                                                       568
IN           State of Indiana                              263,919           423,469
IN           Marion County                                  74,287
IN           Hamilton County                                21,260            17,499
IN           St. Joseph County                               9,261
IN           Hendricks County                                5,544
IN           Johnson County                                  4,649             4,938
IN           Allen County                                    4,437
IN           Porter County                                   3,868             4,301
IN           Grant County                                    3,686             3,048
IN           Monroe County                                   3,476             5,349
IN           Jackson County                                  3,426             8,049
IN           Clark County                                    1,520             3,079
IN           Cass County                                         527           1,918
KS           State of Kansas                               290,269           378,600
KS           Johnson County                                130,457           161,398
KS           Sedgwick County                                85,691           105,520
KS           Wyandotte County                               68,384            49,538
KS           Shawnee County                                 22,896            22,292
KS           Finney County                                  12,421            13,300
KS           Saline County                                  12,165            18,181
KS           Douglas County                                  5,946             8,962
KS           Butler County                                   1,572


                                            - 45 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005           FY 2004
                             Total                $287,143,095      $281,605,292
 State                    Jurisdiction              Amount            Amount
KS       Montgomery County                                    730               49
KY       Shelby County                                  113,902           100,320
KY       Lexington Fayette Urban County                  69,269            54,531
KY       State of Kentucky                               51,142            60,005
KY       Kenton County                                    1,605            12,875
KY       Carroll County                                   1,041             4,531
KY       Louisville Jefferson County                                            35
LA       State of Louisiana                             106,834           143,000
LA       Bossier Parish                                   6,789            13,959
LA       Rapides Parish                                   6,462             5,223
LA       Orleans Parish                                   4,932             4,965
LA       Claiborne Parish                                 2,019             1,136
LA       Lincoln Parish Police Jury                           417           1,424
LA       Avoyelles Parish                                                   6,249
LA       St. Tammany Parish                                                 4,007
LA       St. James Parish                                                       40
MA       State of Massachusetts                       4,728,549         5,362,497
MA       Suffolk County                                 790,048           455,191
MA       Middlesex County                               703,111            29,084
MA       Plymouth County                                517,480           466,190
MA       Bristol County                                 218,130           326,016
MA       Hampden County                                 130,922           160,323
MA       Barnstable County                              121,844           107,802
MA       Norfolk County                                  27,531            84,051
MD       State of Maryland                              985,416         1,122,300
MD       Montgomery County                              964,401         1,356,919
MD       Prince Georges County                           64,396            44,772
MD       Anne Arundel County                             36,607             7,287
MD       Frederick County                                27,527            42,616
MD       Washington County                                5,197            10,561
MD       Charles County                                   4,693             2,778
MD       Carroll County                                   2,733            10,019
ME       State of Maine                                  36,840            37,955
ME       Cumberland County                               18,539             5,831
ME       Lincoln County                                   6,611
ME       York County                                      6,343


                                         - 46 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                             Total               $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
ME       Piscataquis County                                  866               991
ME       Androscoggin County                                               3,405
ME       Aroostook County                                                  2,494
MI       State of Michigan                             884,639         1,059,552
MI       Oakland County                                 82,052           127,681
MI       Macomb County                                  66,873            45,536
MI       Ottawa County                                  46,670            63,786
MI       Wayne County                                   41,587             5,910
MI       Kent County                                    37,783           202,160
MI       Kalamazoo County                               19,192             9,197
MI       Berrien County                                 15,920            18,908
MI       Calhoun County                                 15,582            20,042
MI       St. Clair County                               13,977            18,011
MI       Chippewa County                                12,345             9,131
MI       Allegan County                                 10,198            11,780
MI       Eaton County                                    9,897            11,764
MI       Lapeer County                                   9,348
MI       St. Joseph County                               8,909            10,742
MI       Muskegon County                                 7,942            16,513
MI       Saginaw County                                  7,339            12,254
MI       Jackson County                                  6,069             5,050
MI       Ionia County                                    5,429            17,343
MI       Branch County                                   4,806             5,362
MI       Lenawee County                                  4,155             3,568
MI       Van Buren County                                3,697             1,428
MI       Cass County                                     3,613
MI       Livingston County                               3,520             6,299
MI       Shiawassee County                               2,742             2,418
MI       Tuscola County                                      738
MI       Sanilac County                                      605           1,361
MI       Gratiot County                                      170           1,693
MI       Ingham County                                                    17,041
MI       Washtenaw County                                                 14,964
MI       Huron County                                                          343
MN       State of Minnesota                            934,384         1,205,072
MN       Hennepin County                               144,355           236,438


                                        - 47 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005          FY 2004
                             Total               $287,143,095     $281,605,292
 State                   Jurisdiction              Amount           Amount
MN       Ramsey County                                 113,181          135,525
MN       Dakota County                                  44,959           47,095
MN       Stearns County                                 38,207           36,406
MN       Anoka County                                   19,342           34,444
MN       McLeod County                                  13,201           12,387
MN       Washington County                              10,570           25,158
MN       Watonwan County                                 4,690            4,215
MN       Chippewa County                                 4,273            3,654
MN       Polk County                                         40               966
MN       Olmsted County                                                  41,399
MO       State of Missouri                             310,513          331,509
MO       Greene County                                  28,582           75,355
MO       Jackson County                                 25,070           17,219
MO       St. Charles County                             24,795           19,518
MO       St. Louis County                                8,145           17,411
MO       Pike County                                     4,582                237
MO       Newton County                                   4,279            1,789
MO       St. Louis Metropolitan                          3,594
MO       St. Francois County                             3,079            9,173
MO       Platte County                                   2,383            2,431
MO       Phelps County                                   1,524            2,689
MO       Lafayette County                                                 1,451
MO       Franklin County                                                      566
MS       State of Mississippi                           20,548           38,471
MS       Lauderdale County                               2,580                687
MS       Pike County                                     2,451            1,002
MT       Yellowstone County                              9,542            2,792
MT       Cascade County                                  1,832
NC       State of North Carolina                     2,527,797        2,380,105
NC       Mecklenburg County                            255,020          281,159
NC       Wake County                                   143,724            5,402
NC       Guilford County                               107,266           72,118
NC       Durham County                                  82,967           35,320
NC       Forsyth County                                 69,285          147,230
NC       Orange County                                  46,570           27,614
NC       Pitt County                                    44,896           35,338


                                        - 48 –
                SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005         FY 2004
                             Total                $287,143,095    $281,605,292
 State                    Jurisdiction              Amount          Amount
NC       New Hanover County                              36,132          33,922
NC       Cumberland County                               31,780          48,623
NC       Buncombe County                                 30,113          27,476
NC       Rockingham County                               25,132          24,190
NC       Alamance County                                 24,653          26,413
NC       Davidson County                                 24,586          25,197
NC       Gaston County                                   23,987          37,456
NC       Rowan County                                    19,730           8,989
NC       Sampson County                                  18,507          16,694
NC       Wilson County                                   17,520          11,585
NC       Henderson County                                15,301          22,930
NC       Union County                                    14,723          23,851
NC       Lee County                                      14,497          10,584
NC       Duplin County                                   13,395           6,462
NC       Iredell County                                  12,445          21,923
NC       Randolph County                                 12,184          30,573
NC       Moore County                                    12,022          15,345
NC       Chatham County                                   9,588           9,926
NC       Wilkes County                                    9,476          14,693
NC       Stokes County                                    9,249           5,731
NC       Burke County                                     8,818          11,208
NC       Cleveland County                                 7,741
NC       Catawba County                                   7,605           5,966
NC       Wayne County                                     7,465          23,716
NC       Surry County                                     5,601
NC       Franklin County                                  4,424           6,772
NC       Vance County                                     4,279         136,328
NC       Davie County                                     4,175           5,673
NC       Robeson County                                   4,091           4,815
NC       Haywood County                                   3,578           4,658
NC       Lincoln County                                   2,664
NC       Montgomery County                                2,373
NC       Pender County                                    2,130           1,869
NC       Jackson County                                   1,441           2,654
NC       Lenoir County                                    1,423
NC       Washington County                                1,376           1,788


                                         - 49 –
                SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                            Total                $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
NC       Beaufort County                                 1,315             9,238
NC       Watauga County                                  1,096             3,901
NC       Anson County                                        595
NC       Bladen County                                       456           5,452
NC       Columbus County                                                   1,963
NC       Cabarrus County                                                  19,042
NC       Johnston County                                                  17,950
NC       Scotland County                                                   2,156
NC       Caldwell County                                                   1,896
ND       Cass County                                    25,367             9,663
ND       State of North Dakota                          11,560            15,682
NE       Douglas County                                456,968           560,878
NE       State of Nebraska                             354,507           315,258
NE       Lancaster County                               54,585            56,168
NE       Sarpy County                                   42,219            34,424
NE       Saline County                                  18,762            13,958
NE       Dawson County                                  15,394            20,818
NE       Dakota County                                  12,407            18,713
NE       Platte County                                   8,930            26,858
NE       Phelps County                                   3,593                 448
NE       Lincoln County                                  2,917             5,838
NE       Dixon County                                    2,667             4,968
NE       Buffalo County                                  2,337            10,086
NE       Gage County                                         954           4,410
NE       Thurston County                                      75               157
NH       State of New Hampshire                        127,641           167,264
NH       Hillsborough County                            34,162            15,365
NH       Grafton County                                  7,078             2,141
NH       Merrimack County                                4,168            15,848
NH       Strafford County                                    929           7,103
NJ       State of New Jersey                         3,472,389         4,061,667
NJ       Passaic County                              1,224,817         1,203,054
NJ       Hudson County                                 321,758           416,468
NJ       Monmouth County                               145,362           143,831
NJ       Union County                                  135,118            73,012
NJ       Essex County                                  129,745           346,587


                                        - 50 –
                  SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005         FY 2004
                             Total               $287,143,095    $281,605,292
 State                   Jurisdiction              Amount          Amount
NJ       Morris County                                 115,598         256,959
NJ       Burlington County                             113,337          56,622
NJ       Somerset County                               105,965         141,237
NJ       Atlantic County                               103,295         105,337
NJ       Ocean County                                   95,431         101,591
NJ       Camden County                                  86,583         156,954
NJ       Middlesex County                               82,747         692,327
NJ       Cape May County                                27,591          20,307
NJ       Cumberland County                              25,717          30,205
NJ       Warren County                                  19,759          26,837
NJ       Sussex County                                  12,362          26,203
NJ       Hunterdon County                               10,241          11,764
NJ       Mercer County                                   8,303          30,660
NM       State of New Mexico                           650,877         193,023
NM       City of Albuquerque                           225,367
NM       Dona Ana County                                85,519          63,669
NM       Lea County                                     31,502          35,807
NM       Otero County                                   19,252          25,532
NM       Santa Fe County                                15,897          19,813
NM       Rio Arriba County                              15,520          22,264
NM       Chaves County                                  11,259          16,920
NM       Eddy County                                     7,542
NM       Valencia County                                 5,618          18,650
NM       Luna County                                     4,914           4,549
NM       Roosevelt County                                4,730           5,107
NM       Sierra                                          4,238           4,720
NM       Taos County                                     1,634           4,641
NM       Quay County                                     1,310           1,397
NM       Colfax County                                   1,009           5,556
NM       Bernalillo County                                             248,295
NM       Grant County                                                    5,955
NM       De Baca County                                                  1,759
NM       Hidalgo County                                                  1,742
NV       State of Nevada                             2,412,064       1,383,439
NV       Clark County                                1,456,722       1,486,607
NV       Washoe County                                 286,440         477,898


                                        - 51 –
                SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                             Total               $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
NV       City of Las Vegas                              70,837            55,835
NV       City of North Las Vegas                        49,739            66,221
NV       Carson City County                             19,866            31,104
NV       Elko County                                    15,765            21,463
NV       Nye County                                     12,601             9,612
NV       Douglas County                                 12,371             4,871
NV       Churchill County                               11,816            12,465
NV       Humboldt County                                 5,121            18,506
NV       Lyon County                                     4,586             9,471
NV       Pershing County                                 2,464             6,790
NV       Esmeralda County                                1,652             4,182
NV       Eureka County                                   1,025             3,240
NV       Mineral County                                      117
NY       State of New York                          24,022,356        30,859,709
NY       City of New York                           15,893,255        20,667,392
NY       Nassau County                               1,970,809         2,584,492
NY       Westchester County                            366,356           489,256
NY       Rockland County                               231,136           251,515
NY       Monroe County                                  65,079            46,565
NY       Dutchess County                                37,346            65,050
NY       Ulster County                                  20,454            45,036
NY       Jefferson County                               18,659             4,204
NY       Niagara County                                 18,531            27,469
NY       Erie County                                    17,697            54,067
NY       Franklin County                                17,081            17,480
NY       Onondaga County                                15,784            14,016
NY       Albany County                                  14,937            23,195
NY       Broome County                                  13,060            39,129
NY       Oswego County                                  11,045             8,306
NY       Schenectady County                              9,621            38,668
NY       Wayne County                                    8,940            15,611
NY       Oneida County                                   7,553             9,014
NY       Greene County                                   7,422            10,278
NY       Rensselaer County                               6,732             6,266
NY       Ontario County                                  6,724            15,237
NY       Chemung County                                  5,904             4,724


                                        - 52 –
                SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                            Total                $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
NY       Schuyler County                                 5,705             3,035
NY       Washington County                               5,356
NY       Putnam County                                   5,210            34,594
NY       Genesee County                                  4,098             2,614
NY       Herkimer County                                 2,859                 145
NY       Yates County                                    1,588             1,301
NY       Chautauqua County                                   974           5,611
NY       Fulton County                                       785
NY       Columbia County                                     764
NY       Wyoming County                                      490               463
NY       St. Lawrence County                                 278           1,707
NY       Steuben County                                      225           2,222
NY       Livingston County                                                 1,273
NY       Suffolk County                                                1,489,818
NY       Orange County                                                   142,163
NY       Orleans County                                                    6,699
NY       Clinton County                                                    3,453
NY       Cayuga County                                                     2,559
NY       Montgomery County                                                 1,099
OH       State of Ohio                                 664,897           766,829
OH       Cuyahoga County                                49,216            70,357
OH       Summit County                                  17,579            14,729
OH       Greene County                                  12,192             8,531
OH       Erie County                                     2,345                 881
OH       Licking County                                  1,730             1,542
OH       Medina County                                                     5,335
OK       State of Oklahoma                             622,173           649,583
OK       Oklahoma County                                65,864            84,623
OK       Texas County                                   34,926            44,741
OK       Tulsa County                                    6,843            21,120
OK       Kay County                                      4,737             2,526
OK       Cleveland County                                3,744             2,912
OK       Caddo County                                    2,883                 652
OK       Grady County                                    2,854             3,413
OK       Carter County                                   2,092             2,336
OK       Okfuskee County                                 1,507                 270


                                        - 53 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005           FY 2004
                            Total                 $287,143,095      $281,605,292
 State                   Jurisdiction               Amount            Amount
OK       Pottawatomie County                                  438           1,223
OK       Cimarron County                                      407
OK       Harper County                                        175           5,304
OK       Lincoln County                                                         619
OK       Ottawa County                                                          596
OK       Delaware County                                                        77
OR       State of Oregon                              3,417,250
OR       Multnomah County                               290,987           444,322
OR       Lane County                                    201,052           224,088
OR       Marion County                                  172,017
OR       Washington County                              158,052           283,682
OR       Linn County                                     25,166            28,346
OR       Jackson County                                  23,373            50,619
OR       Malheur County                                  21,187            18,496
OR       Benton County                                   20,856            22,759
OR       Umatilla County                                 16,857            30,722
OR       Deschutes County                                16,797            10,393
OR       Lincoln County                                  16,776            29,776
OR       Polk County                                     14,061            24,536
OR       Yamhill County                                  13,773             8,963
OR       Douglas County                                  12,827             3,389
OR       Clatsop County                                  12,620            21,368
OR       Hood River County                               12,488            16,527
OR       Tillamook County                                 6,601             8,240
OR       Jefferson County                                 6,405             8,307
OR       Coos County                                      6,272             6,725
OR       Wasco County                                     4,610             7,800
OR       Columbia County                                  1,888             1,111
OR       Union County                                     1,688            13,473
OR       Gilliam County                                       596               842
OR       Clackamas County                                                  75,733
OR       Sherman County                                                     1,546
PA       Pennsylvania Department of Corrections         908,520         1,156,505
PA       City of Philadelphia                           132,061            87,983
PA       Bucks County                                   119,894           109,352
PA       Lehigh County                                   43,199            87,135


                                        - 54 –
                    SCAAP Recipients – FYs 2005 and 2004
                                                       FY 2005           FY 2004
                                 Total               $287,143,095      $281,605,292
     State                   Jurisdiction              Amount            Amount
PA           Dauphin County                                 35,147            35,406
PA           Lancaster County                               32,861            28,366
PA           Luzerne County                                 29,323            37,074
PA           Lebanon County                                 23,099            20,484
PA           Berks County                                   22,396            43,246
PA           Monroe County                                  20,038            24,924
PA           Westmoreland County                            10,357                 653
PA           Franklin County                                 9,856            10,042
PA           Erie County                                     8,055            13,815
PA           Crawford County                                 2,763             1,215
PA           Pike County                                     1,852             3,430
PA           Beaver County                                       635           2,727
PA           Cambria County                                                   20,479
PA           Schuylkill County                                                 6,923
PA           Centre County                                                     4,037
PA           Fayette County                                                        116
PR           Commonwealth of Puerto Rico                   319,429           158,903
RI           State of Rhode Island                         863,995           760,584
SC           South Carolina Department of                  283,452           323,486
             Corrections
SC           Horry County                                   30,754            29,503
SC           Lexington County                               27,521
SC           Charleston County                              25,823            29,919
SC           York County                                    22,240            16,190
SC           Dorchester County                               6,774            14,539
SC           Aiken County                                    5,173             1,969
SC           Colleton County                                 3,199             3,208
SC           Berkeley County                                 2,849             4,263
SC           Georgetown County                                   540           1,675
SC           Cherokee County                                     457           1,186
SC           Florence County                                                   6,490
SD           Minnehaha County                               51,927            41,493
SD           State of South Dakota                          24,955            74,470
SD           Pennington County                               6,332             8,553
TN           State of Tennessee                            212,435           228,289
TN           Metropolitan Nashville & Davidson             159,174           124,738
             County


                                            - 55 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005         FY 2004
                             Total                $287,143,095    $281,605,292
 State                    Jurisdiction              Amount          Amount
TN       Shelby County                                   57,152         104,153
TN       Hamilton County                                 15,404
TN       Knox County                                      6,375           6,623
TN       Maury County                                     1,069          11,145
TX       State of Texas                              18,582,484      17,126,820
TX       Harris County                                2,693,977       2,795,228
TX       Hidalgo County                                 714,808          48,291
TX       Travis County                                  658,636         842,159
TX       Dallas County                                  636,166
TX       Bexar County                                   547,366         640,506
TX       Tarrant County                                 403,123         535,507
TX       El Paso County                                 357,084         218,179
TX       Collin County                                  303,305         257,672
TX       Denton County                                  163,183         205,350
TX       Fort Bend County                               118,802         117,111
TX       Williamson County                              107,402         167,020
TX       Brazos County                                   87,090          63,854
TX       Galveston County                                67,131          41,065
TX       Webb County                                     64,069          81,443
TX       Ellis County                                    54,735          49,537
TX       Montgomery County                               44,935          64,333
TX       Hays County                                     44,497          53,830
TX       Nueces County                                   42,501          14,979
TX       Smith County                                    39,542          53,635
TX       Bell County                                     35,258          57,193
TX       Gillespie County                                34,806           4,828
TX       Midland County                                  33,738         177,045
TX       Cameron County                                  29,936         460,229
TX       McLennan County                                 28,213          18,607
TX       Brazoria County                                 27,436          35,670
TX       Jefferson County                                26,646          50,789
TX       Johnson County                                  26,433          27,273
TX       Rockwall County                                 22,703          25,888
TX       Ector County                                    21,859          32,311
TX       Maverick County                                 20,643
TX       Moore County                                    20,582          26,638


                                         - 56 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005         FY 2004
                            Total                $287,143,095    $281,605,292
 State                   Jurisdiction              Amount          Amount
TX       Nacogdoches County                             20,239
TX       Dallam County                                  18,909
TX       Tom Green County                               17,670          18,096
TX       Lubbock County                                 15,500          13,616
TX       Victoria County                                12,915          25,053
TX       Navarro County                                 12,897          15,758
TX       Kaufman County                                 12,326          13,137
TX       Kerr County                                    11,376          11,983
TX       Hill County                                    11,342          10,155
TX       Grayson County                                 11,327          23,750
TX       Randall County                                 11,122          16,368
TX       Comal County                                   10,898          27,947
TX       Guadalupe County                               10,469           9,578
TX       Hopkins County                                 10,020
TX       Angelina County                                 9,959
TX       Taylor County                                   8,902          12,614
TX       Wise County                                     8,476          12,639
TX       Andrews County                                  8,379          11,616
TX       Harrison County                                 8,015           9,753
TX       Henderson County                                7,727          16,810
TX       Parker County                                   7,400          18,210
TX       Starr County                                    7,026
TX       Val Verde County                                6,713           7,138
TX       Limestone County                                6,399           5,247
TX       Matagorda County                                6,257          18,739
TX       Cherokee County                                 6,017          10,454
TX       Deaf Smith County                               5,847          11,477
TX       Upshur County                                   5,514           6,279
TX       Comanche County                                 5,463           6,979
TX       Crane County                                    5,019           2,625
TX       Castro County                                   4,817               53
TX       Crockett County                                 4,438          10,784
TX       Caldwell County                                 4,335           4,915
TX       Hudspeth County                                 4,299           2,704
TX       Uvalde County                                   4,284           4,977
TX       Hutchinson County                               4,123           3,760


                                        - 57 –
                SCAAP Recipients – FYs 2005 and 2004
                                                   FY 2005           FY 2004
                             Total               $287,143,095      $281,605,292
 State                   Jurisdiction              Amount            Amount
TX       Wood County                                     3,967             4,201
TX       Milam County                                    3,912                 947
TX       Parmer County                                   3,910             6,707
TX       Pecos County                                    3,870
TX       Kinney County                                   3,795                 462
TX       Van Zandt County                                3,747             5,262
TX       Bowie County                                    3,600             2,991
TX       Walker County                                   3,504             3,715
TX       Zapata County                                   3,426             6,841
TX       Polk County                                     3,392             6,200
TX       Ochiltree County                                3,356             5,497
TX       Burnet County                                   2,769             6,641
TX       Edwards County                                  2,610
TX       Atascosa                                        2,476
TX       Fayette County                                  2,326             3,872
TX       Calhoun County                                  2,251             1,033
TX       Lamar County                                    2,091                 964
TX       Live Oak County                                 2,038             2,736
TX       Duval County                                    1,915             5,155
TX       Palo Pinto County                               1,658
TX       Fannin County                                   1,566             5,247
TX       Bosque County                                   1,195
TX       Nolan County                                    1,154             2,349
TX       Lee County                                      1,069             1,701
TX       Lynn County                                     1,005             1,747
TX       Medina County                                       947               184
TX       Orange County                                       537           3,767
TX       Eastland County                                     391               945
TX       Atascosa County                                                   3,122
TX       Brown County                                                      2,346
UT       Salt Lake County                              623,692           596,712
UT       State of Utah                                 368,037           460,181
UT       Davis County                                  139,849           151,106
UT       Utah County                                    65,608            46,737
UT       Weber County                                   35,784            58,075
UT       Cache County                                   24,986            38,177


                                        - 58 –
                 SCAAP Recipients – FYs 2005 and 2004
                                                     FY 2005           FY 2004
                              Total                $287,143,095      $281,605,292
 State                     Jurisdiction              Amount            Amount
UT       Washington County                                16,032            21,234
UT       Box Elder County                                  9,867             5,416
UT       Sevier County                                     4,415             8,323
VA       Commonwealth of Virginia                      1,011,172         1,300,673
VA       Fairfax County                                  708,545           618,920
VA       Prince William County                           251,223           296,786
VA       Arlington County                                235,996           223,125
VA       City of Alexandria                              165,141
VA       Rockingham County                                65,030            55,401
VA       Chesterfield County                              35,251            78,388
VA       Loudoun County                                   31,463            72,846
VA       City of Chesapeake                               24,103            26,154
VA       Henrico County                                   16,860            17,340
VA       Albemarle County                                 12,386
VA       City of Newport News                             10,589            18,874
VA       Shenandoah County                                 8,226            13,696
VA       Henry County                                      7,862             7,023
VA       York County                                       4,763            15,427
VA       Stafford County                                   4,742             7,545
VA       City of Charlottesville                           4,480
VA       City of Hampton                                   3,528             4,912
VA       James City County                                 3,287             5,891
VA       City of Danville                                  2,458             7,401
VA       City of Martinsville                              2,365             2,995
VA       Lunenburg County                                  1,478                 730
VA       City of Fredericksburg                            1,257             5,646
VA       Williamsburg County                               1,059
VA       City of Suffolk                                       907           3,109
VA       Spotsylvania County                                   658           3,573
VA       Nottaway County                                       594               519
VA       Nelson County
VA       City of Portsmouth                                                  2,581
VA       City of Virginia Beach                                              1,724
VA       King George County                                                  1,450
VA       City of Williamsburg                                                    582
VA       Isle of Wight County                                                    54


                                          - 59 –
                     SCAAP Recipients – FYs 2005 and 2004
                                                        FY 2005         FY 2004
                                 Total                $287,143,095    $281,605,292
     State                    Jurisdiction              Amount          Amount
VI           Virgin Islands                                 269,825         408,132
VT           State of Vermont                                14,437          32,118
WA           State of Washington                          1,723,823       2,206,930
WA           King County                                    812,270         971,560
WA           Pierce County                                  138,288         139,048
WA           Yakima County                                  116,702         126,711
WA           Snohomish County                                92,252          84,953
WA           Franklin County                                 85,130          84,519
WA           Thurston County                                 59,461          51,904
WA           Benton County                                   53,641          52,208
WA           Whatcom County                                  51,368          67,618
WA           Grant County                                    47,635          51,790
WA           Chelan County                                   44,389          40,540
WA           Spokane County                                  38,004          39,990
WA           Cowlitz County                                  37,382          30,977
WA           Skagit County                                   35,484          42,272
WA           Lewis County                                    33,229          36,370
WA           Walla Walla County                              25,095          15,569
WA           Douglas County                                  23,444          23,729
WA           City of Yakima                                  20,360          19,551
WA           City of Wapato                                  19,964
WA           City of Wenatchee                               16,325          22,516
WA           Grays Harbor County                             12,947          27,962
WA           Kitsap County                                   10,640          12,782
WA           Okanogan County                                 10,623          25,186
WA           Kittitas County                                 10,458           7,749
WA           Adams County                                     8,320           7,626
WA           Mason County                                     6,202          16,833
WA           Clallam County                                   6,178           6,053
WA           City of Aberdeen                                 5,216           6,085
WA           Whitman County                                   1,944           1,370
WA           City of Sunnyside                                1,329           1,504
WA           Clark County                                                    78,530
WI           State of Wisconsin                           1,243,892       1,473,682
WI           Dane County                                     96,180         105,253
WI           Milwaukee County                                84,781         183,468


                                             - 60 –
                  SCAAP Recipients – FYs 2005 and 2004
                                                    FY 2005           FY 2004
                             Total                $287,143,095      $281,605,292
  State                   Jurisdiction              Amount            Amount
WI        Kenosha County                                 59,611            79,239
WI        Walworth County                                59,177             8,240
WI        Sheboygan County                               54,033
WI        Brown County                                   49,206            63,337
WI        Waukesha County                                46,060            56,222
WI        Jefferson County                               31,723            19,426
WI        Racine County                                  29,192            19,895
WI        Rock County                                    23,700            37,951
WI        Outagamie County                               23,121            43,449
WI        Sauk County                                    14,446            12,277
WI        Ozaukee County                                 11,278            10,323
WI        Manitowoc County                               11,011             8,477
WI        Columbia County                                 9,346             3,568
WI        Waupaca County                                  8,480             6,693
WI        Calumet County                                  7,953             6,471
WI        Shawano County                                  6,890             5,136
WI        Winnebago County                                6,133            30,203
WI        Waushara County                                 4,733
WI        Dodge County                                    4,575
WI        Portage County                                  3,317             2,292
WI        Green County                                    1,030             1,680
WI        Lafayette County                                    205           1,780
WI        Fond du Lac County                                                9,361
WI        La Crosse County                                                  4,604
WI        Sawyer County                                                     1,966
WV        State of West Virginia                          6,495             5,824
WY        State of Wyoming                               79,074           121,529
Source: OJP




                                         - 61 –
                                                                                  APPENDIX IV

                           OIG Survey Recipients

Green highlighted text indicates survey respondent. 99 jurisdictions with total
SCAAP awards for FY 2005 totaling $205,455,783 responded to our survey.

                                                                   FY 2005
         State                  Jurisdiction
                                                                Total Amount
1        CA      State of California                            $ 85,953,191
2        NY      State of New York                                24,022,356
3        TX      State of Texas                                   18,582,484
4        NY      New York City                                    15,893,255
5        FL      State of Florida                                 12,806,110
6        CA      County of Los Angeles                            12,530,034
7        AZ      State of Arizona                                 12,139,791
8        CA      County of Orange                                  6,562,437
9        IL      State of Illinois                                 4,731,269
10       MA      State of Massachusetts                            4,728,549
11       NJ      State of New Jersey                               3,472,389
12       OR      State of Oregon                                   3,417,250
13       TX      County of Harris                                  2,693,977
14       NC      State of North Carolina                           2,527,797
15       NV      State of Nevada                                   2,412,064
16       CO      State of Colorado                                 2,358,707
17       CA      County of San Diego                               2,346,881
18       NY      Nassau County                                     1,970,809
19       IL      County of Cook                                    1,926,114
20       WA      State of Washington                               1,723,823
21       CA      County of Santa Clara                             1,616,147
22       NV      Clark County                                      1,456,722
23       GA      State of Georgia                                  1,393,149
24       AZ      Maricopa County                                   1,297,752
25       CA      County of Riverside                               1,254,534
26       WI      State of Wisconsin                                1,243,892
27       NJ      Passaic County                                    1,224,817
28       CA      City and County of San Francisco                  1,087,199
29       CA      County of Fresno                                  1,045,772
30       VA      Commonwealth of Virginia                          1,011,172
31       MD      State of Maryland                                   985,416
32       MD      Montgomery County                                   964,401
33       CA      San Mateo County                                    955,843
34       CO      City and County of Denver                           950,665
35       MN      State of Minnesota                                  934,384
36       PA      Pennsylvania Department of Corrections              908,520
37       MI      State of Michigan                                   884,639
38       CA      Sacramento County                                   873,005
39       RI      State of Rhode Island                               863,995
40       WA      King County                                         812,270
41       MA      County of Suffolk                                   790,048
42       CT      State of Connecticut                                779,697
43       CA      County of Monterey                                  735,201
44       TX      County of Hidalgo                                   714,808
45       VA      County of Fairfax                                   708,545


                                         - 62 –
                           OIG Survey Recipients

Green highlighted text indicates survey respondent. 99 jurisdictions with total
SCAAP awards for FY 2005 totaling $205,455,783 responded to our survey.

                                                                   FY 2005
         State                  Jurisdiction
                                                                Total Amount
46       MA      County of Middlesex                                 703,111
47       OH      State of Ohio                                       664,897
48       TX      Travis County                                       658,636
49       NM      State of New Mexico                                 650,877
50       TX      County of Dallas                                    636,166
51       UT      Salt Lake County                                    623,692
52       OK      State of Oklahoma                                   622,173
53       CA      County of Kern                                      613,980
54       CA      County of Sonoma                                    604,578
55       FL      Collier County                                      597,409
56       CA      Contra Costa County                                 592,346
57       CA      County of Ventura                                   564,332
58       TX      County of Bexar                                     547,366
59       MA      County of Plymouth                                  517,480
60       NE      Douglas County                                      456,968
61       CA      County of San Bernardino                            407,580
62       AZ      County of Pima                                      407,301
63       NY      Westchester County                                  366,356
64       NC      Mecklenburg County                                  255,020
65       VA      County of Prince William                            251,223
66       FL      County of Hillsborough                              233,499
67       NY      County of Rockland                                  231,136
68       AZ      Yuma County                                         220,339
69       OR      Lane County                                         201,052
70       HI      State of Hawaii                                     195,595
71       FL      Pinellas County                                     194,285
72       IL      County of Kane                                      189,347
73       FL      County of Lee                                       186,685
74       CA      Napa County                                         184,611
75       CA      San Joaquin County                                  181,990
76       VA      City of Alexandria                                  165,141
77       FL      County of Sarasota                                  148,472
78       NC      Wake County                                         143,724
79       FL      Orange County                                       139,138
80       WA      County of Pierce                                    138,288
81       NJ      County of Essex                                     129,745
82       MA      Barnstable County                                   121,844
83       TX      County of Fort Bend                                 118,802
84       GA      County of Cherokee                                  113,614
85       CO      El Paso County                                      100,370
86       NJ      Ocean County                                         95,431
87       AZ      County of Yavapai                                    93,802
88       FL      County of Osceola                                    89,780
89       FL      Seminole County                                      88,956
90       NM      Dona Ana County                                      85,519
91       WA      County of Franklin                                   85,130
92       WI      County of Milwaukee                                  84,781


                                         - 63 –
                           OIG Survey Recipients

Green highlighted text indicates survey respondent. 99 jurisdictions with total
SCAAP awards for FY 2005 totaling $205,455,783 responded to our survey.

                                                                   FY 2005
         State                  Jurisdiction
                                                                Total Amount
93       NC      County of Durham                                     82,967
94       MI      County of Oakland                                    82,052
95       DC      District of Columbia                                 81,762
96       GA      De Kalb County Georgia                               79,948
97       FL      Miami Dade County                                    78,587
98       CO      County of Eagle                                      78,319
99       NC      Forsyth County                                       69,285
                 Lexington Fayette Urban County
100      KY      Government                                           69,269
101      KS      Unified Government of Wyandotte County               68,384
102      VA      Rockingham County                                    65,030
103      TX      County of Webb                                       64,069
104      WI      County of Kenosha                                    59,611
105      IA      Woodbury County                                      57,725
106      CA      Imperial County                                      56,370
107      FL      County of Indian River                               54,704
108      WI      County of Sheboygan                                  54,033
109      CO      County of Pitkin                                     50,679
110      WI      County of Brown                                      49,206
111      GA      Hall County                                          36,833
112      MD      County of Anne Arundel                               36,607
113      NC      County of Cumberland                                 31,780
114      SC      County of Horry                                      30,754
115      NC      County of Buncombe                                   30,113
116      TX      County of Cameron                                    29,936
117      OR      County of Linn                                       25,166
118      UT      County of Cache                                      24,986
119      MO      County of St Charles                                 24,795
120      OR      County of Jackson                                    23,373
121      SC      County of York                                       22,240
122      IA      County of Polk                                       16,332
123      IL      De kalb County                                       14,869
124      NC      County of Duplin                                     13,395
125      IL      County of Rock Island                                12,496
126      NC      Iredell County                                       12,445
127      NC      County of Randolph                                   12,184
128      TX      County of Hill                                       11,342
129      IL      County of Kendall                                    10,870
130      WA      Kittitas County                                      10,458
131      NJ      Hunterdon County                                     10,241
132      ID      Washington County                                     9,794
133      MT      County of Yellowstone                                 9,542
134      MI      County of St. Joseph                                  8,909
135      GA      County Of Newton                                      8,684
136      TX      County of Andrews                                     8,379
137      WA      Adams County                                          8,320
138      ID      County Of Bingham                                     8,076
139      ID      County of Twin Falls                                  7,103

                                         - 64 –
                           OIG Survey Recipients

Green highlighted text indicates survey respondent. 99 jurisdictions with total
SCAAP awards for FY 2005 totaling $205,455,783 responded to our survey.

                                                                   FY 2005
         State                  Jurisdiction
                                                                Total Amount
140      FL      County of Suwannee                                    6,944
141      OK      County of Tulsa                                       6,843
142      NM      County of Valencia                                    5,618
143      NV      County of Humboldt                                    5,121
144      TX      County of Castro                                      4,817
145      NH      County of Merrimack                                   4,168
146      MI      Livingston County                                     3,520
147      TX      County of Zapata                                      3,426
148      NE      County of Lincoln                                     2,917
149      OK      Grady County                                          2,854
150      GA      County Of Monroe                                      2,577
151      TX      County of Atascosa                                    2,476
152      NV      County of Pershing                                    2,464
153      OH      Erie County                                           2,345
154      GA      County of Lee                                         2,104
155      OK      County of Carter                                      2,092
156      TX      County of Lamar                                       2,091
157      OK      County of Okfuskee                                    1,507
158      NM      Quay County                                           1,310
159      WI      Green County                                          1,030
160      VA      City of Suffolk                                         907
161      MI      County of Tuscola                                       738
162      KS      County of Montgomery                                    730
163      NC      County of Anson                                         595
164      NY      County of Wyoming                                       490
                 Total                                          $264,776,153
Source: OIG and OJP data




                                         - 65 –
                                                         APPENDIX V

               Major Cities Chiefs of Police Statement

(From a document entitled M.C.C. Immigration Committee
Recommendations, June 2006.)




                                - 66 –
- 67 –
                         APPENDIX VI

State of Oregon Policy




        - 68 –
                          APPENDIX VII

City of New York Policy




        - 69 –
- 70 –
- 71 –
                                     APPENDIX VIII

San Francisco City Administrative Code




                - 72 –
- 73 –
- 74 –
                                           APPENDIX IX

California Attorney General’s Opinion #01-213




                   - 75 –
- 76 –
- 77 –
- 78 –
- 79 –
- 80 –
- 81 –
- 82 –
- 83 –
- 84 –
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
         REDACTED]
               JURISDICTION




         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
         [SENSITIVE INFORMATION
                                                                                    STATE [SENSITIVE
                                                                                    INFORMATION
                                                                                    REDACTED]
                                                                                    If law enforcement officers from
                                                                                    your jurisdiction arrest an
                                                                                    individual on state or local




- 85 –
              No
                   No
                        No
                                  No
                                       No
                                            No
                                                 No
                                                      No
                                                           No
                                                                No
                                                                     No
                                                                          No
                                                                               No
                                                                               No

                                                                                    charges, do they generally ask
                                                                                    the subject about his or her
                                                                                    immigration status?

                                                                                    If law enforcement officers from
                                                                                    your jurisdiction have reason to
                                                                                    believe that someone they
                                                                                    arrest may be an




         No
              No
                   No
                        No
                             No
                                  No
                                       No
                                                 No
                                                           No
                                                                No
                                                                     No
                                                                          No
                                                                               No
                                                                               No




                                                                                    undocumented alien, do they
                                                                                    generally inform ICE that the
                                                                                    individual is in their custody?

                                                                                    Do the detention facilities in
                                                                                    your jurisdiction generally
                                                                                    accept detainers from ICE for
                                                                          No




                                                                                    undocumented criminal aliens
                                                                                    in their custody?

                                                                                    Do the detention facilities in
                                                                                                                        JURISDICTIONS WITH MULTIPLE “NO” ANSWERS TO THE OIG SURVEY




                                                                                    your jurisdiction generally alert
                                                                                    ICE prior to releasing any
                                                                               No




         No
                             No
                                            No
                                                      No
                                                                No
                                                                     No
                                                                               No
                                                                                                                                                                                     APPENDIX X




                                                                                    undocumented criminal aliens
                                                                                    in their custody?
     JURISDICTIONS WITH MULTIPLE “NO” ANSWERS TO THE OIG SURVEY




                                                                If law enforcement officers from




                                                                                                   If law enforcement officers from
                                                                                                   your jurisdiction have reason to




                                                                                                                                                                       your jurisdiction generally alert
                                                                charges, do they generally ask




                                                                                                                                      undocumented criminal aliens




                                                                                                                                                                       undocumented criminal aliens
                                                                                                                                      accept detainers from ICE for
                                                                                                   undocumented alien, do they
                                                                                                   generally inform ICE that the
                                                                                                   individual is in their custody?
                               STATE [SENSITIVE




                                                                                                                                      Do the detention facilities in




                                                                                                                                                                       Do the detention facilities in
                                                                the subject about his or her




                                                                                                   believe that someone they
                                                                individual on state or local




                                                                                                                                      your jurisdiction generally
                                                                your jurisdiction arrest an




                                                                                                                                                                       ICE prior to releasing any
                                                  INFORMATION




                                                                immigration status?
                                                  REDACTED]




                                                                                                   arrest may be an




                                                                                                                                      in their custody?




                                                                                                                                                                       in their custody?
      JURISDICTION
[SENSITIVE INFORMATION                                                      No                                 No
REDACTED]
[SENSITIVE INFORMATION                                                                                                                          No                                 No
REDACTED]
[SENSITIVE INFORMATION                                                      No                                                                                                     No
REDACTED]
 Source: Responses to OIG survey

         The following explanatory comments were offered by respondents listed in
  this table. The respondents did not necessarily offer an explanation for each
  negative answer.

        (1) If law enforcement officers from your jurisdiction arrest an individual on
  state or local charges, do they generally ask the subject about his or her
  immigration status?

            •   [SENSITIVE INFORMATION REDACTED] – “Generally, if an individual
                does not appear to be foreign they will not be asked. Now if an
                individual has no proper identification and it is apparent that they may
                be foreign then they will ask.”

            •   [SENSITIVE INFORMATION REDACTED] – “Not everyone arrested
                would prompt an arresting officer to inquire about a person's
                immigration status. It is unknown as to how many times a day an
                arresting officer would have cause to ask an arrestee about their
                immigration status.”

            •   [SENSITIVE INFORMATION REDACTED]a – “The [SENSITIVE
                INFORMATION REDACTED] does not generally ask immigration status.
                We may if need be, but not generally.”




                                                                - 86 –
•   [SENSITIVE INFORMATION REDACTED] – “There is no local ordinance
    or regulation from the County's Board of Supervisors authorizing the
    Department of Correction to ask arrestees about their immigration
    status.”

•   [SENSITIVE INFORMATION REDACTED] – “It is not the Police
    Department's policy to ask, however, some officers ask voluntarily. It
    is not the Police Department's policy to take proactive enforcement
    action against undocumented aliens. However, if an encounter with an
    undocumented alien yields a wanted status for an immigration
    violation listed by another agency, the Police Dept. will confirm
    extradition before arrest.”

•   [SENSITIVE INFORMATION REDACTED] – “Since [SENSITIVE
    INFORMATION REDACTED] is a home rule city the Sheriff Dept doesn't
    ‘arrest’ persons as part of our normal duties. When persons are
    brought to us or we take someone into our custody we do ask for
    place of birth. Anyone who self reports as being born outside the USA
    is forwarded to ICE.”

•   [SENSITIVE INFORMATION REDACTED] – “No means they don't
    generally ask, since their immigration status has no bearing on the
    local charge. Additionally, if they did ask and the defendant said he
    was illegal, who would we tell?”

•   [SENSITIVE INFORMATION REDACTED] – “Not unless there is a reason
    to believe there would be an issue with the status.”

•   [SENSITIVE INFORMATION REDACTED] – “Not Applicable.”

•   [SENSITIVE INFORMATION REDACTED] – “We complete an NCIC check
    on all arrestees, and we report those with a history of deportation.”

•   [SENSITIVE INFORMATION REDACTED] – “Ask where born but don't
    check immigration status.”

•   [SENSITIVE INFORMATION REDACTED] – “Generally no, unless there
    is reason to believe individual has been involved in certain criminal
    activities such as: arrested for, or has been convicted of a felony,
    violent crime, etc.”

•   [SENSITIVE INFORMATION REDACTED] – “Deputies working patrol
    within [SENSITIVE INFORMATION REDACTED] do not generally ask
    arrestees their immigration status.”

                            - 87 –
        •   [SENSITIVE INFORMATION REDACTED] – “Immigration status is
            determined during the Booking process.”

        •   [SENSITIVE INFORMATION REDACTED] – “Only if the investigation
            points to the fact that the individual(s) may be an undocumented
            alien.”

      (2) If law enforcement officers from your jurisdiction have reason to believe
that someone they arrest may be an undocumented alien, do they generally
inform ICE that the individual is in their custody?

        •   [SENSITIVE INFORMATION REDACTED] – “Notification may occur in
            felony offenses, but not usually for minor offenses.”

        •   [SENSITIVE INFORMATION REDACTED] – “From my experience it is
            difficult to contact these agencies.”

        •   [SENSITIVE INFORMATION REDACTED] – “Unknown. However, the
            [SENSITIVE INFORMATION REDACTED] Custody Division is
            implementing an automated inquiry and notification process for
            consular notifications as part of the booking process.”

        •   [SENSITIVE INFORMATION REDACTED] – “ICE agents come into our
            facility on a regular basis and review our records of undocumented
            aliens.”

        •   [SENSITIVE INFORMATION REDACTED] – “There is no policy or local
            regulation from the County's Board of Supervisors that allows
            Department of Correction officers to inform ICE that an individual is in
            custody.”

        •   [SENSITIVE INFORMATION REDACTED] – “This is a Sheriff's
            [Department] function.”

        •   [SENSITIVE INFORMATION REDACTED] – “Our experience has shown
            that ICE is not going to respond anyway.”

        •   [SENSITIVE INFORMATION REDACTED] – “Not Applicable.”

        •   [SENSITIVE INFORMATION REDACTED] – “All arrestees in [SENSITIVE
            INFORMATION REDACTED] are brought to the [SENSITIVE
            INFORMATION REDACTED] County Jail; this is when the NCIC [check]
            is done.”

                                    - 88 –
         •   [SENSITIVE INFORMATION REDACTED] – “Depends on nature of
             crime.”

         •   [SENSITIVE INFORMATION REDACTED] – “Law enforcement officers
             may contact ICE but jail staff do not. We have an ICE employee that
             regularly reviews inmate rosters.”

         •   [SENSITIVE INFORMATION REDACTED] – “No, unless certain
             conditions are met such as: if individual is reasonably suspected of
             participating in certain criminal activity, arrested for using a firearm
             during commission of a crime, involvement in violent crime. Etc.”

         •   [SENSITIVE INFORMATION REDACTED] – “Deputies working patrol
             within [SENSITIVE INFORMATION REDACTED] do not generally inform
             the DHS/ICE that the individual they have in custody may be
             undocumented. However, on occasion deputies will advise the 287(g)
             Officers of the undocumented arrestee.”

         •   [SENSITIVE INFORMATION REDACTED] – “Past history has shown that
             they will rarely pick the subjects up for transport.”

         •   [SENSITIVE INFORMATION REDACTED] – “Sheriff's Deputies do not
             inform ICE. Detention staff will notify ICE if information obtained from
             a criminal history rap sheet or information obtained from our local
             database alerts [this] Department of previous contacts with ICE
             (releases to ICE or previously deported criminal alien).”

      (3) Do the detention facilities in your jurisdiction generally accept detainers
from ICE for undocumented criminal aliens in their custody?

         •   [SENSITIVE INFORMATION REDACTED] – “ICE does not bring people
             (inmates) to our facility.”

         •   [SENSITIVE INFORMATION REDACTED] – “The [SENSITIVE
             INFORMATION REDACTED] has a contract to have ICE inmates.”

      (4) Do the detention facilities in your jurisdiction generally alert ICE prior to
releasing any undocumented criminal aliens in their custody?

         •   [SENSITIVE INFORMATION REDACTED] – “[No.] Unless ICE asks us
             to.”



                                      - 89 –
•   [SENSITIVE INFORMATION REDACTED] – “In most cases we are
    unaware of status.”




                        - 90 –
                                                                     APPENDIX XI

      Bureau of Justice Assistance Response to the Draft Audit Report

MEMORANDUM TO:              Glenn A. Fine
                            Inspector General
                            United States Department of Justice

THROUGH:                    Guy K. Zimmerman
                            Assistant Inspector General for Audit
                            Office of the Inspector General
                            United States Department of Justice

FROM:                       Regina B. Schofield
                            Assistant Attorney General

SUBJECT:                    Response to Office of the Inspector General’s Draft Audit
                            Report, Cooperation of SCAAP Recipients in the Removal
                            of Criminal Aliens from the United States

       This memorandum responds to the Office of the Inspector General’s (OIG’s)
draft audit report entitled “Cooperation of SCAAP Recipients in the Removal of
Criminal Aliens from the United States.” The draft report does not contain any
recommendations. The Office of Justice Programs has reviewed the draft audit
report and does not have any comments.

       Thank you for the opportunity to review and respond to the draft audit
report. If you have any questions regarding this response, please feel free to
contact me on (202) 307-5933, or LeToya Johnson, Director, Program Review
Office, on (202) 514-0692.


cc:     Beth McGarry
        Deputy Assistant Attorney General
          for Operations and Management

        Domingo Herraiz
        Director, Bureau of Justice Assistance

        LeToya A. Johnson
        Director, Program Review Office

        Richard P. Theis
        DOJ Audit Liaison




                                          - 91 –
